<html>
<title> - HOW OBAMA'S GREEN ENERGY AGENDA IS KILLING JOBS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
            HOW OBAMA'S GREEN ENERGY AGENDA IS KILLING JOBS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT

                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 22, 2011

                               __________

                           Serial No. 112-116

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 22, 2011...............................     1
Statement of:
    Solis, Hilda, Secretary, Department of Labor; Daniel B. 
      Poneman, Deputy Secretary, U.S. Department of Energy; and 
      Keith Hall, Commissioner, Bureau of Labor Statistics.......    42
        Hall, Keith..............................................    68
        Poneman, Daniel B........................................    53
        Solis, Hilda.............................................    42
Letters, statements, etc., submitted for the record by:
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, Brookings Institute study...........    78
    Hall, Keith, Commissioner, Bureau of Labor Statistics, 
      prepared statement of......................................    70
    Issa, Hon. Darrell E., a Representative in Congress from the 
      State of California, staff report..........................     6
    Poneman, Daniel B., Deputy Secretary, U.S. Department of 
      Energy, prepared statement of..............................    55
    Solis, Hilda, Secretary, Department of Labor, prepared 
      statement of...............................................    45


            HOW OBAMA'S GREEN ENERGY AGENDA IS KILLING JOBS

                              ----------                              


                      THURSDAY, SEPTEMBER 22, 2011

                          House of Representatives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m., in 
room 2154, Rayburn House Office Building, Hon. Darrell E. Issa 
(chairman of the committee) presiding.
    Present: Representatives Issa, Platts, Jordan, Chaffetz, 
Mack, Walberg, Lankford, Amash, Buerkle, Gosar, Labrador, 
DesJarlais, Guinta, Farenthold, Kelly, Cummings, Towns, Norton, 
Kucinich, Tierney, Cooper, Connolly, Quigley, Davis, and Welch.
    Staff present: Molly Boyl, parliamentarian; Lawrence J. 
Brady, staff director; Joseph A. Brazauskas and Hudson T. 
Hollister, counsels; Katelyn E. Christ, research analyst; John 
Cuaderes, deputy staff director; Adam P. Fromm, director of 
Member services and committee operations; Tyler Grimm, 
professional staff member; Christopher Hixon, deputy chief 
counsel, oversight; Justin LoFranco, deputy director of digital 
strategy; Mark D. Marin, director of oversight; Kristina M. 
Moore, senior counsel; Beverly Britton Fraser, Claire Coleman, 
and Donald Sherman, minority counsels; Kevin Corbin, minority 
deputy clerk; Ashley Etienne, minority director of 
communications, Carla Hultberg, minority chief clerk; Chris 
Knauer, minority senior investigator; Lucinda Lessley, minority 
policy director; Dave Rapallo, minority staff director; and 
Susanne Sachsman Grooms, minority chief counsel.
    Chairman Issa. This hearing will come to order.
    The Oversight Committee's mission statement is, we exist to 
secure two fundamental principles. First, Americans have a 
right to know that the money Washington takes from them is well 
spent. And second, Americans deserve an efficient, effective 
government that works for them.
    Our duty on the Oversight and Government Reform Committee 
is to protect these rights. Our solemn responsibility is to 
hold government accountable to taxpayers. Because taxpayers 
have a right to know what they get from their government. We 
will work tirelessly in partnership with citizen watchdogs to 
deliver the facts to the American people and bring genuine 
reform to the Federal bureaucracy. This is our mission.
    Today we are going to talk about affordable energy, the 
lifeblood of America's rise in a global economy. We will touch 
on a number of clear issues, successes and failures. First of 
all, the American people know well that leveraging energy more 
efficiently is in fact necessary to compete in a global 
environment. America produces products for a fraction of the 
energy used by China and other developing nations. We already 
are more efficient.
    Yet, the Obama administration has systematically waged a 
war on carbon-based energy in pursuit of new ``green'' energy. 
This campaign includes aggressive regulatory programs impacting 
the oil, gas and coal industries that have previously been the 
source of job creation and economic growth here in America. And 
a campaign that includes an aggressive push for government-
backed, taxpayer-paid for green energy and green jobs.
    Unfortunately, President Obama's green energy agenda 
appears to be playing favorites with certain comapnies. 
Additionally, we are well aware that there is a lot more 
``green'' in the way of cash and a lot less energy and jobs 
than anticipated. Facing the worst economic recession since the 
Great Depression, President Obama confronted the economic 
crisis with a proposal for green jobs. He cited the efforts of 
other nations as a rationale to subsidize our way to new 
technology and energy independence.
    Yet as this hearing, and a report released by the committee 
today, will demonstrate, the other nations who have tried the 
same approach have experienced mixed results at best. President 
Obama relied on a false pretense that subsidizing green energy 
as other nations, such as Spain, Germany and Japan did, would 
result in good, high-wage jobs, when in actuality, nations such 
as Spain, Italy, Denmark, Germany and the U.K. have struggled 
with job destruction, higher energy costs and loss of taxpayer 
dollars as a result of pursuing such policies.
    Looking back on the Obama green energy record, 3 years and 
billions of taxpayer dollars later, the American people have 
received very little return on the President's signature 
investment. In practice, the guise of green jobs has become a 
political rallying cry designed to unite environmentalists and 
union leaders to consolidate an ideologically based agenda. 
This would be okay if in fact it produced the jobs. And it 
didn't. It has almost meant punishing and pushing to the edge 
of the envelope all others. It has meant the politicization of 
the Bureau of Labor Statistics, which has begun using gimmick 
accounting methods to count green jobs.
    And let me emphasize, we don't count similar carbon jobs. 
We don't count the other jobs. This initiative ordering the 
counting of green jobs is very important, because it is poorly 
defined.
    I might mention today the staff on both sides of the dais 
will be counted as green jobs created under this standard. Yes, 
if we talk about green jobs, if we lobby for green jobs, as a 
matter of fact, if you are a paid lobbyist, you count for green 
jobs, you count as green jobs.
    The agenda also has been driven by political favoritism. 
And there are accusations of pay to play relationships 
benefiting private investors on the back of public loan 
guarantees as in the case of Solyndra.
    We are not here to investigate that today. Our mission is 
broader. It is seemingly at cross purposes to President Obama 
and his administration who have promoted traditional energy 
sources abroad through loans and diplomacy, while openly 
discouraging them at home. We cannot in fact raise the cost of 
our energy while promoting other countries finding lower cost 
carbon-based energy and assume that we are being more 
competitive.
    Jobs have not been produced in a sustained fashion or in 
the number promised. And billions of taxpayer dollars have 
yielded little to truly stimulate the economy. All while a 
vital domestic engine of growth, the U.S. energy production 
industry, has been choked, starved and hyper-regulated.
    Addressing these shortcomings will deliver on a goal that 
both President Obama and members of this committee share: 
creating jobs and growing the economy while delivering 
affordable energy to the American consumer and business.
    It is very clear that many of us on both sides of the aisle 
hoped for better than we got. Today's hearing is to come to the 
reality that no matter how often we hope for better, this 
committee has an obligation to recognize when we fail to 
achieve it.
    I now recognize the ranking member for his opening 
statement.
    Mr. Cummings. Thank you very much, Mr. Chairman, and I 
thank you for calling this hearing.
    Madam Secretary, it is an honor indeed, a tremendous honor 
to have you here today. I am sure you have testimony that goes 
just the opposite of what the chairman has just talked about, 
and I look forward to hearing it. The administration is 
fortunate to have your commitment to the environment, to our 
economy and to American jobs.
    I also welcome Deputy Secretary Poneman from the Department 
of Energy and Dr. Hall, a good friend from the Department of 
Labor.
    When I go home to my district in Baltimore, my constituents 
are clear about what they want. They want jobs. They don't care 
if these jobs are green, purple or any other color, as long as 
they pay a fair wage and give them a sense of prosperity and a 
hope for their children's future.
    My constituents also tell me they are tired of the 
inflammatory rhetoric coming out of Washington, and I agree. 
Some Members appear to be more interested in making wild 
allegations for political purposes than in finding solutions to 
the challenges we face.
    Let me give you an example. On September 8th, the chairman 
issued a staff report claiming the Recovery Act was a failure 
because it ``destroyed'' or forestalled one million private 
sector jobs. To support this conclusion, the report cited only 
a single study issued in May. That study was quickly 
discredited for its flawed methodology. Nobel laureate Paul 
Krugman called the underlying study ``weak and dubious.'' He 
warned that it was being ``seized on by people who have no idea 
what the issues are.''
    In contrast, the non-partisan Congressional Budget Office 
estimated in its most recent report that the Recovery Act 
``increased the number of people employed by between one 
million and 2.9 million'' and ``increased the number of full-
time equivalent jobs by 1.4 million to 4 million.'' Other 
mainstream economists agree with the CBO.
    A second example of this false rhetoric is the title of 
today's hearing: ``How Obama's Green Energy Agenda is Killing 
Jobs.'' I guess that is President Obama. Despite this rhetoric, 
there is no evidence that the administration's clean energy 
programs are resulting in fewer jobs. In fact, just the 
opposite. Developing clean energy technologies is critical to 
our economic survival, and our competitors know this. China is 
making massive investments in clean energy programs and 
dominating these sectors. America is losing its edge in the 
global marketplace. And we will lose the future ownership of 
these technologies and the jobs they create if we fail to 
support these sectors.
    As a third example, the chairman appeared on national 
television this week and accused specific Members of Congress 
of crony capitalism for supporting green initiatives in their 
district. He called this ``corruption.'' And he claimed that it 
was ``endemic.''
    He also said this, ``There has been this attitude that 
somehow government can weigh in with loan guarantees and money 
and pick winners, specific company winners and losers.'' But 
just last year, in 2010, the chairman wrote personally to the 
Secretary of Energy seeking a loan guarantee for an electric 
vehicle company in San Diego. He not only supported one 
company, but he endorsed the entire concept of green energy. He 
said this loan would help in ``shifting away from fossil fuels 
and using viable renewable energy sources.''
    He said the loan would ``reduce dependence on foreign oil, 
enhance energy security and promote domestic job creation 
throughout California as well as in other States.''
    Mr. Chairman, in terms of this loan program, it seems like 
you were for it before you were against it.
    And according to this morning's press reports, 10 other 
Members on your side wrote similar letters. And I have no 
problem, I have absolutely no problem, with these letters or 
your praise for the program. But I disagree with the claim that 
Members who support green energy are somehow corrupt.
    My basic point is this. If we are going to compete with 
China in the decades to come, we need to be responsible and 
serious in our efforts. We need to do what my constituents and 
your constituents and the majority of Americans elected us to 
do. We need to focus on creating jobs, boosting the economy and 
serving the interests of the American citizen.
    With that, Mr. Chairman, I yield back.
    Chairman Issa. I thank the gentleman.
    As a point of personal privilege, I would ask unanimous 
consent that the article by a division of the New York Times, 
put into and for the purposes of your opening statement written 
before it was published at 10 o'clock last night, be placed in 
the record. In that statement, in that article it does in fact 
state 10 Members targeted to say that if we ask for money 
already in the pipeline to be considered for various projects, 
that somehow we support it.
    I am a supporter of green, of electric and hybrid vehicles 
and have no problem at all with trying to have vehicles that 
use more efficient electricity, whether it is from nuclear or 
other zero emissions. Having said that, I would object to the 
gentleman's--you may.
    Your opening statement was clearly written in anticipation 
of an article not yet published and we all know it here.
    Additionally, I would ask unanimous consent that the 
majority Oversight Reform Staff report entitled, and I will 
have it edited, ``How President Obama's Green Energy Agenda is 
Killing Jobs.'' Without objection, so ordered. The actual 
reason for this hearing today, which is in fact to find the 
connection between green expenditures and jobs.
    Howerver, if the gentleman would like to research any of 
those projects, we certainly would consider hearings on that.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] 73444.001
    
    [GRAPHIC] [TIFF OMITTED] 73444.002
    
    [GRAPHIC] [TIFF OMITTED] 73444.003
    
    [GRAPHIC] [TIFF OMITTED] 73444.004
    
    [GRAPHIC] [TIFF OMITTED] 73444.005
    
    [GRAPHIC] [TIFF OMITTED] 73444.006
    
    [GRAPHIC] [TIFF OMITTED] 73444.007
    
    [GRAPHIC] [TIFF OMITTED] 73444.008
    
    [GRAPHIC] [TIFF OMITTED] 73444.009
    
    [GRAPHIC] [TIFF OMITTED] 73444.010
    
    [GRAPHIC] [TIFF OMITTED] 73444.011
    
    [GRAPHIC] [TIFF OMITTED] 73444.012
    
    [GRAPHIC] [TIFF OMITTED] 73444.013
    
    [GRAPHIC] [TIFF OMITTED] 73444.014
    
    [GRAPHIC] [TIFF OMITTED] 73444.015
    
    [GRAPHIC] [TIFF OMITTED] 73444.016
    
    [GRAPHIC] [TIFF OMITTED] 73444.017
    
    [GRAPHIC] [TIFF OMITTED] 73444.018
    
    [GRAPHIC] [TIFF OMITTED] 73444.019
    
    [GRAPHIC] [TIFF OMITTED] 73444.020
    
    [GRAPHIC] [TIFF OMITTED] 73444.021
    
    [GRAPHIC] [TIFF OMITTED] 73444.022
    
    [GRAPHIC] [TIFF OMITTED] 73444.023
    
    [GRAPHIC] [TIFF OMITTED] 73444.024
    
    [GRAPHIC] [TIFF OMITTED] 73444.025
    
    [GRAPHIC] [TIFF OMITTED] 73444.026
    
    [GRAPHIC] [TIFF OMITTED] 73444.027
    
    [GRAPHIC] [TIFF OMITTED] 73444.028
    
    [GRAPHIC] [TIFF OMITTED] 73444.029
    
    [GRAPHIC] [TIFF OMITTED] 73444.030
    
    [GRAPHIC] [TIFF OMITTED] 73444.031
    
    [GRAPHIC] [TIFF OMITTED] 73444.032
    
    [GRAPHIC] [TIFF OMITTED] 73444.033
    
    [GRAPHIC] [TIFF OMITTED] 73444.034
    
    [GRAPHIC] [TIFF OMITTED] 73444.035
    
    [GRAPHIC] [TIFF OMITTED] 73444.036
    
    Chairman Issa. Members will have 7 days to submit opening 
statements and extraneous material for the record.
    The Chair now recognizes our first panel of witnesses: the 
Honorable Hilda Solis, a long-time classmate and fellow 
Californian, and Secretary of Labor. Mr. Daniel Poneman, who is 
Deputy Secretary of Energy. Thank you for being here. And Dr. 
Keith Hall, is Commissioner of the Bureau of Labor Statistics 
at the Department of Labor.
    Pursuant to the committee's rule, all witnesses are to be 
sworn. Would you please rise to take the oath? And raise your 
right hands.
    [Witnesses sworn.]
    Chairman Issa. Let the record indicate all witnesses 
answered in the affirmative.
    Madam Secretary, you have been on this side of the dais, so 
I will only say it for the other two. Your entire opening 
statements will be placed in the record. The 5-minutes, fairly 
close, with the usual green, yellow and red, is designed for 
you to expand on that as you see fit. I understand that 
sometimes you are restricted to the words that have been 
cleared. But to the greatest extent possible, we would like you 
to use the time to go beyond the written statements, which are 
in the record.
    Madam Secretary.

  STATEMENTS OF HILDA SOLIS, SECRETARY, DEPARTMENT OF LABOR; 
DANIEL B. PONEMAN, DEPUTY SECRETARY, U.S. DEPARTMENT OF ENERGY; 
    AND KEITH HALL, COMMISSIONER, BUREAU OF LABOR STATISTICS

                    STATEMENT OF HILDA SOLIS

    Secretary Solis. Thank you, Chairman, and good morning, and 
Ranking Member Cummings and the other members of this 
committee. I want to thank you for the invitation to come and 
speak to you about the Department of Labor's efforts to help 
State and local governments and businesses, community colleges, 
non-profit groups and work force agencies provide training to 
prepare America's workers to succeed in the clean energy 
economy of the 21st century.
    The authors of a recent report by the Brookings Institution 
estimates that 2.7 million Americans are employed in positions 
related to the clean economy, and that 90 percent of these jobs 
are located in traditional industry sectors, such as 
manufacturing and exports. The Recovery Act was an 
unprecedented investment in the green economy. Our Recovery Act 
investments, I believe, were wise decisions. The green economy 
is growing significantly faster than the national economy, and 
therefore, we believe, can provide a path to a more successful 
recovery.
    The vibrancy of the green economy is not artificially 
propped up by Recovery Act investments. In fact, the Recovery 
Act investments supply simply supported the investments that 
private sector corporations have already made that they deem 
wise. Venture capitalists are voting with their dollars in 
favor of the future of the green economy, according to the 
Brookings Institution report.
    As part of the Recovery Act, the Department of Labor 
awarded $500 million in competitive grants to fund 189 green 
job projects throughout the country. Our grants have several 
important objectives. We have aligned our grants closely with 
the local and regional labor market needs by requiring our 
grantees to partner with local businesses that place a high 
value on innovation.
    We also are targeting our grants to serve Americans in most 
need of help, like veterans, disabled veterans, unemployed 
workers with disabilities and workers in areas of high poverty. 
Our grants give these populations a chance at a secure, well-
paying job in the future economy as well as now.
    For example, in Indiana, a partnership that included the 
Workforce Development, Natural Resources and Transportation 
Department and the National Guard provided 2,000 young people 
with green jobs through the Recovery Act funding.
    We are starting to see some good results from our Recovery 
Act investments. As of June 2011, over 52,000 people have 
participated in our green training grant programs. We expect to 
eventually serve about 100,000. And about 60 percent of those 
participants were unemployed when they started training. The 
rest had jobs, they are known as incumbent workers, that needed 
training to ensure that they could keep their jobs. To date, 
well over 26,000 participants have completed their training. 
And more than half of them who didn't have a job when they 
started training now do. As these grants progress, we know that 
these numbers will increase.
    These results are consistent with the data that shows the 
green economy in general. And according to Brookings, wages in 
the green economy are 13 percent higher and provide these good 
wages to workers in many cases with lower skills. In fact, 
according to Brookings, almost half of all green jobs are held 
by workers with a high school degree or less. Yet they are more 
likely to make good wages or better wages than other low-
skilled workers.
    For the most part, there are no low-wage jobs in the green 
economy. Our efforts didn't end with the Recovery Act, however. 
Our Green Jobs Innovation Fund program is building on the 
success of our Recovery Act program. We just awarded six grants 
totaling $38 million. One of those grants went to Jobs for the 
Future, which is serving over 1,000 unemployed and lower-
skilled workers in seven cities. The innovative programs use 
both workers and employers as equal partners in expanding the 
green jobs pipeline.
    Serving today's youth is critical to our green jobs effort, 
because they are suffering, especially our youth, unprecedented 
high numbers of unemployment. And I am especially proud to work 
with the Office of Apprenticeship, which has worked with 
employers to identify several new occupations for a very 
important program, known as wind turbine technician, energy 
auditors and well-drilling operators. With us today in the 
audience are Scott Grant and Charlie Kauffman and Jerry 
Robinson, who are local D.C. area employers that partner with 
the Department of Labor to provide green apprenticeships.
    Our DOL Youth Build program is also training young people 
for the growth industries of the future, such as in green 
construction. For example, at Case Verde Youth Build in Austin, 
Texas, youth are being trained to install solar panels, and 
youth are also building energy-efficient and affordable homes 
in East Austin. In the audience today we have Eric Rodriguez 
and Cornelius Stark, who are learning green building techniques 
through our Youth Build program located here in Washington, DC.
    Our Job Corps program has trained more than 15,000 students 
over the past few years in green training jobs. For example, at 
Clearfield Job Corps Center in Utah, 14 students graduated in 
our green training program and they all found jobs. The 
Department is upholding the administration's commitment to 
accountability and transparency in the programs. We 
continuously monitor our green investments to make sure that 
they are achieving all of their objectives.
    But I would like to underscore, because I know my time is 
running out, that we do everything we can to help provide 
better monitoring tools. We do that on a regular basis. And if 
we do find that there are issues or problems, then we will 
assign staff at the national level and regional level to 
oversee to make sure that we get on course. But keep in mind, 
these partnerships are driven by business, industry, by data 
that is generated from the local and regional area. So it isn't 
driven down by the Federal Government. It actually is coming up 
from the bottom where we find that there is a need to build 
jobs, there is a lack of training or skills. But it is all 
market-driven.
    So with that, Mr. Chairman, thank you.
    [The prepared statement of Secretary Solis follows:]
    [GRAPHIC] [TIFF OMITTED] 73444.037
    
    [GRAPHIC] [TIFF OMITTED] 73444.038
    
    [GRAPHIC] [TIFF OMITTED] 73444.039
    
    [GRAPHIC] [TIFF OMITTED] 73444.040
    
    [GRAPHIC] [TIFF OMITTED] 73444.041
    
    [GRAPHIC] [TIFF OMITTED] 73444.042
    
    [GRAPHIC] [TIFF OMITTED] 73444.043
    
    [GRAPHIC] [TIFF OMITTED] 73444.044
    
    Chairman Issa. Thank you, Madam Secretary.
    Secretary Poneman.

                  STATEMENT OF DANIEL PONEMAN

    Mr. Poneman. Chairman Issa, Ranking Member Cummings, and 
distinguished members of the committee, thank you for the 
opportunity to appear before you today to discuss the 
Department of Energy's program to strengthen our energy 
security, to advance clean energy innovation, to create jobs 
for the American people and to make the United States more 
competitive in the global economy.
    Since unlike Secretary Solis, I am not yet known to the 
committee, I will allow myself a brief introduction. I have 
spent over 35 years working in the national security arena, 
including 6 years working for President George Herbert Walker 
Bush and President Bill Clinton at the National Security 
Council. I spent a number of years in the private sector as 
well, before returning to public service in 2009 at the 
Department of Energy.
    Worldwide, between $5 and $10 trillion are spent on energy 
every year. This is an enormous market that is expected to 
increase dramatically in the coming years as developing 
countries like China and India continue to grow.
    Countries around the world are already moving aggressively 
to develop and deploy the clean energy technologies that will 
be needed to meet the growing global demand. Just last year, 
global clean energy investments reached $243 billion, an 
increase of 50 percent from 2009. And the pace of growth shows 
no sign of slowing.
    There is a significant economic and employment opportunity 
to be seized by the companies and the countries that 
successfully innovate and compete in these clean energy 
industries. This is a race. It is a race to develop the 
technologies and the domestic manufacturing capacity that will 
drive job creation and set a foundation for the future 
prosperity of the United States.
    Our competitors are stepping up, and they are playing to 
win. The United States once led the world in clean energy 
investments. Now we rank third, behind China and Germany. So we 
have a choice to make today. We can compete in the global 
marketplace, creating American jobs and selling American 
products, or we can resign ourselves to importing the 
technologies of tomorrow from abroad.
    I believe that we can and must compete. That is why, under 
President Obama's leadership, we have taken unprecedented steps 
to deploy American innovation and to make sure that the United 
States is a leader in the global energy economy of the future. 
Through our investments in clean energy, we are creating 
hundreds of thousands of new clean energy jobs and catalyzing 
investments by the private sector, while reducing our excessive 
dependence on energy imports and saving money for families and 
businesses across the country.
    This is a race that we can win. But we must recognize that 
it is not a race that can be won overnight. It is going to take 
a sustained commitment to build a competitive clean energy 
industry in America, especially as our companies are forced to 
compete against foreign competitors like China that are 
providing their companies with significant State support. To 
meet this challenge, we have focused our investments in three 
main areas. First, advancing innovation through research and 
development; second, expanding American manufacturing capacity; 
and third, enabling the deployment of innovative, clean energy 
technologies at commercial scale when private financing is not 
widely available.
    These efforts will continue to be essential in growing our 
economy, moving private capital off the sidelines and expanding 
new industries in the United States. They have helped to put 
hundreds of thousands of Americans back to work.
    Even as we face difficult budget choices, the Government 
can and should continue to play a role in supporting American 
companies and helping them to compete globally. American jobs 
today and in the decades to come depend on it.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Poneman follows:]
    [GRAPHIC] [TIFF OMITTED] 73444.045
    
    [GRAPHIC] [TIFF OMITTED] 73444.046
    
    [GRAPHIC] [TIFF OMITTED] 73444.047
    
    [GRAPHIC] [TIFF OMITTED] 73444.048
    
    [GRAPHIC] [TIFF OMITTED] 73444.049
    
    [GRAPHIC] [TIFF OMITTED] 73444.050
    
    [GRAPHIC] [TIFF OMITTED] 73444.051
    
    [GRAPHIC] [TIFF OMITTED] 73444.052
    
    [GRAPHIC] [TIFF OMITTED] 73444.053
    
    [GRAPHIC] [TIFF OMITTED] 73444.054
    
    [GRAPHIC] [TIFF OMITTED] 73444.055
    
    [GRAPHIC] [TIFF OMITTED] 73444.056
    
    [GRAPHIC] [TIFF OMITTED] 73444.057
    
    Mr. Chaffetz [presiding]. Thank you.
    Dr. Hall, you are now recognized for 5 minutes.

                    STATEMENT OF KEITH HALL

    Dr. Hall. Mr. Chairman, members of the committee, I am 
pleased to be here today to provide a summary of activities 
underway in the Bureau of Labor Statistics to measure 
employment in green jobs. BLS is, as you know, an independent 
statistical agency that is the principal Federal source for 
information on employment and unemployment, inflation, wages 
and benefits, worker safety and productivity. Our mission is to 
provide relevant, accurate, timely and objective statistical 
data to help inform policymakers and the public.
    All of our data products, including the upcoming green jobs 
data, meet these high standards. To protect our impartiality 
and independence, we take no role in policymaking and do not 
conduct policy analysis ourselves.
    BLS received funding beginning in the fiscal year 2010 to 
develop and implement the collection of new data on green jobs. 
The goal of the BLS green jobs initiative is to develop 
information on the number of and trend over time in green jobs, 
the industrial, occupational and geographic distribution of the 
jobs, and wages of workers in these jobs.
    To measure green jobs, BLS first had to develop and 
objective, measurable definition. BLS began by reviewing work 
done by other national statistical agencies, such as Statistics 
Canada and EuroStat, as well as work done by various State 
labor market information offices and by non-profit 
organizations. Looking at these studies, BLS found the common 
thread running through the various definitions is green jobs 
help to preserve or restore the environment or conserve natural 
resources.
    BLS engaged in extensive outreach and consultation with 
other Federal agencies with expertise in various aspects of the 
jobs and then published a draft green jobs definition in the 
March 2010 Federal Register notice. BLS received about 150 
comments on this proposed definition, as well as additional 
feedback from Federal stakeholders, including the Departments 
of Energy, the Environmental Protection Agency and the Council 
on Environmental Quality and an interagency discussion 
organized by the Office of Management and Budget in April 2010.
    In a September 21, 2010 Federal Register notice, BLS 
announced its final definition of green jobs for the purposes 
of statistical data collection. Under this definition, there 
are two different types of jobs that qualify as green jobs. 
First are jobs and business establishments that produce goods 
or services that benefit the environment or conserve natural 
resources. BLS refers to these as green goods and services 
jobs.
    The second is jobs in which the work performed makes the 
production process of business establishments more 
environmentally friendly or use fewer natural resources. BLS 
refers to these as green technologies and practices jobs.
    The first step for BLS in measuring green jobs and services 
was to identify sectors and industries within which goods and 
services that directly benefit the environment are produced. In 
total, BLS identified over 300 detailed industries as well as 
defined by the North American Industry Classification System 
where green goods and services are produced. Some examples are 
the utility sector, which produces electricity from renewable 
Resources, the manufacturing sector, which produces Energy Star 
certified appliances, the agriculture sector, which produces 
organic crops, the construction sector, which provides 
weatherization services and the professional and business 
sector, which provides environmental consulting services.
    The next step for BLS currently underway is to conduct a 
green goods and services survey to identify the proportion of 
each industry that is engaged in producing green goods and 
services. This survey was sent out in May 2011 to a sample of 
120,000 business establishments in the industries identified as 
producing green goods and services. The survey presents these 
business establishments with a description of green products or 
services classified in their respective industries and asks 
respondents to estimate the share of establishment revenue 
accounted for by green outputs.
    Based on the survey, BLS will produce data on green goods 
and services employment for the United States by industry and 
for States by industry sector. The first estimates will be 
available in early 2012.
    To measure green technology and practices jobs, BLS is 
conducting a special employer data survey collection called the 
Green Technologies and Practices Survey. Businesses in any 
industry that may use green technologies and practices, 
regardless of the nature or ``greenness'' of their outputs, are 
potentially included. Therefore, the Green Technologies and 
Practices Survey will be sent to a sample of about 35,000 
business establishments selected from all U.S. industry 
sectors. Respondents will again be presented with descriptions 
of various types of Technologies or practices that benefit the 
environment or conserve resources and asked to indicate which, 
if any, are utilized by the establishment. We should have 
estimates on that survey by mid-2012.
    [The prepared statement of Dr. Hall follows:]
    [GRAPHIC] [TIFF OMITTED] 73444.058
    
    [GRAPHIC] [TIFF OMITTED] 73444.059
    
    [GRAPHIC] [TIFF OMITTED] 73444.060
    
    [GRAPHIC] [TIFF OMITTED] 73444.061
    
    [GRAPHIC] [TIFF OMITTED] 73444.062
    
    Mr. Chaffetz. Thank you. Appreciate that.
    I will now recognize myself for 5 minutes.
    Mr. Poneman, starting with you, would you consider 
hydroelectricity as a renewable energy source?
    Mr. Poneman. Thank you, Mr. Chairman. Yes, we have a 
continuous flow of water and absolutely, it keeps flowing.
    Mr. Chaffetz. So would that fit, potentially, the 
definition of what a green job would be, or be in that category 
of green jobs?
    Mr. Poneman. Mr. Chairman, I defer to my distinguished 
colleague who has done more etymological study of how we define 
green jobs. But certainly in terms of low carbon renewable 
resource, hydroelectric fits right in the pocket.
    Mr. Chaffetz. Dr. Hall, would that fit your definition?
    Dr. Hall. Yes, it would. One of our categories of green 
goods is energy from renewable resources.
    Mr. Chaffetz. And you would consider hydroelectric power as 
renewable?
    Dr. Hall. Yes.
    Mr. Chaffetz. Madam Secretary, would you consider 
hydroelectricity as renewable?
    Secretary Solis. Yes.
    Mr. Chaffetz. One of the frustrations and questions is this 
idea that it has created, as you said, Mr. Poneman, ``hundreds 
of thousands of new jobs.'' I have a difficult time seeing 
that. A, we don't have a definition of what that is. So how do 
we come to this conclusion? I ask that rhetorically, as a 
follow-up. But I think one of the difficulties, at least you 
see for myself, is this claim, this exorbitant claim of 
hundreds of thousands of jobs, yet there is not even a 
definition of what those jobs are going to be.
    If we had the Department of Interior here, they would take 
great exception to the idea that hydroelectricity is renewable. 
To me, I come to the same conclusion as you do, I think it is 
renewable. But it is one of the challenges and we do need to 
straighten it out. The administration is on very dramatically 
different pages on this. And it affects the States, 
particularly out west, who have a lot of these resources.
    Madam Secretary, I would like to go through this, and I am 
looking at your written statement here. You picked various 
items out for your verbal comments.
    In the Recovery Act, on page 3, it says that there was $500 
million for competitive grants. And then as you picked out some 
of the statistics, on page 4, paragraph 3, talking about the 
52,000 people have participated in the Recovery Act, I want to 
make sure I am doing my math right. I am skipping down to the 
bottom there, it says approximately 15,000 of those individuals 
did not have jobs upon program entry. Of those individuals 
without a job when they started the program, 52 percent have 
found work with 83 percent of those individuals obtaining 
employment in the same industry or occupation in which they 
were trained.
    That number, as best I can calculate, comes out to 6,225. 
We congratulate and we are happy for them and their families. 
One of my concerns is, if we are spending $500 million to get 
people trained, and the conclusion is 6,200 people, that is 
roughly $80,000 per person.
    Secretary Solis. Actually, if I could respond, Mr. 
Chairman, what I would want to remind you is that our programs 
are intended to train individuals, incumbent workers, those 
that are currently on the job, as well as assisting those that 
have been unemployed, displaced. So think about the automobile 
worker who just lost their job, now does not have any ability 
to find transition into something else similar. So we will 
attract them, get them into programs that will, precisely for 
this reason, look at new techniques that they could engage in 
through our training programs. And maybe now will be involved 
in hybrid automobile development. And many have made that 
transition.
    So there is that, how could I say, ability for individuals 
to make that transition. It is a little more clear; in other 
industries, it is a lot harder. I will tell you again, though, 
our funding is for training. And based on----
    Mr. Chaffetz. Was I inaccurate, I am sorry to interrupt, 
but was I inaccurate in my numbers in the assessment? We are 
talking about $80,000 per person.
    Secretary Solis. I think that is actually a little higher. 
We look at it more as someone who is enrolling in a community 
college. The training program typically runs that amount.
    Mr. Chaffetz. But I wonder if you can actually document 
that it actually went out and found a job. It didn't create any 
jobs. It trained them, and you can argue the validity of 
needing to do that.
    Secretary Solis. It trained people to also keep those jobs, 
because many employers are actually laying people off if they 
didn't have higher credentials, because they wanted to remain 
competitive. So that is a part of our program that we are 
offering.
    Mr. Chaffetz. I have just a few seconds here. In your 
written testimony you talked about a Clearfield Job Corps, 
wonderful organization, based in my State, outside of my 
district. But one of the things in your written testimony is 
saying that the 14 students recently graduated from green 
training programs, including renewable resources, obviously 
that sounds green, overhead line construction and advanced 
automotive. Those don't sound quite as green as maybe we would 
be led to believe. If you could help me understand why that 
would be categorized as green, I would appreciate it.
    My time is expired, and I yield back. Actually, now I 
recognize the ranking member, Mr. Cummings, for 5 minutes.
    Mr. Cummings. Were you going to answer that question, Dr. 
Hall, the question he just asked? Could somebody answer that 
question? I think it is a good question.
    Secretary Solis. I would say that many of our training 
programs provide a variety of services. So while not all these 
programs received, how could I say, more than 50 percent of the 
money that they get is not all dedicated to just green. What is 
happening, though, all our programs, Youth Build and Job Corps, 
have been told to change their curriculum. So we have students 
that are enrolled in programs to be, say, automobile mechanics 
or diesel mechanics. And they are learning new technology. In 
many cases, they are using new refined fuels, things of that 
nature.
    So yes, they are learning some of that new aptitude. But 
across the board, I would say many of the programs continue to 
provide somewhat traditional training. But we are emphasizing, 
and keep in mind we have only had this program in place now for 
less than 2\1/2\ years. So we are making that transition, and 
we want to do better, we want to make sure that our young 
people, especially, get that upgraded skill set that they are 
going to need to make them more competitive.
    Mr. Chaffetz. Thank you. I will now recognize the gentleman 
from Maryland.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Madam Secretary, are we training people to get into 
careers? Is that part of it? I am just curious. I know there 
are people in my district that were able to take advantage of 
some training programs, so that they established a career, so 
that they weren't laid off. And maybe they were in a job, and 
that job, in other words, in this economy we are having a lot 
of employers who have learned to do more with less people. 
Could you just comment very briefly, because I have a number of 
questions?
    Secretary Solis. Congressman Cummings, what we see is that 
many of our students, for example, those that are here today, 
in the Job Corps and Youth Build program, receive several 
different credentials and certificates. So they are being 
trained for a career and a profession as opposed to just one 
job as someone who is just, say, a bricklayer. They are 
actually taught different kinds of segments of the construction 
industry, which includes renewable. And also electricity, you 
get a whole set of different credentials that you can earn 
while you are in that program.
    Mr. Cummings. On July 13th, the Brookings Institution 
issued a major study providing the first comprehensive analysis 
of the U.S. green economy. I am going to ask unanimous consent 
to put the Brookings report into the record.
    Chairman Issa [presiding]. Without objection.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 73444.063
    
    Mr. Cummings. Thank you.
    This report made a number of findings, and I would like to 
focus on two. First, the report found that the clean economy 
generates good-paying jobs. According to the report, the clean 
economy employs some 2.7 million workers more than the fossil 
fuel industry. The report also goes on to say, newer, clean 
tech segments produce explosive job gains. And the clean 
economy outperformed the Nation during the recession. Newer 
clean economy establishments, especially those in young energy 
related segments, such as wind energy, solar and smart grid, 
added jobs to the base, albeit it from small bases.
    Madam Secretary, do you agree with the Brookings report 
that certain segments of the clean economy offer the potential 
for explosive job growth? And do the other panelists agree? And 
I want to go back to what the chairman was saying, and it was 
implied by Congressman Chaffetz, too, that your numbers aren't 
accurate. I need you to address that. Is that a fair statement?
    Chairman Issa. I think it is very fair to say that we think 
it is completely----
    Mr. Cummings. I want to make sure that they address that. 
Because you have been accused of something here, and I want you 
to clear it up. I think that is going to be part of the basis 
of this hearing, and what those folks over there are writing 
about.
    Secretary Solis. Right. Congressman, I want to reiterate 
that through our Recovery Act programs, our job training 
programs, we have already trained 52,000. The initial grants 
are----
    Mr. Cummings. And that is a fact?
    Secretary Solis. Yes. And we potentially, in the next 
coming year and a half, possibly, we will see up to 96,000 that 
will be targeted. So they will go through our credential 
programs.
    At this point in time, as of June 30, 2011, 26,000 workers 
have completed training, and about 15,000 who were unemployed 
workers and 11,000 who were what we call incumbent workers, so 
they had job, but were being trained in our programs as well, 
and over 22,000 have received a credential.
    And I would say that approximately half of that 15,000 or 
so did get new jobs. We are tracking that as we continually 
roll along here. What we are finding is the average cost to 
provide the training averages, again, about the cost it would 
be to attend a community college.
    Mr. Cummings. The Brookings report also made a second key 
point, which is that the United States needs to support these 
key sectors to remain competitive. Here is what the report 
says. China now leads the world in clean economy deployment. In 
2010, China put into place a staggering $54.4 billion in clean 
energy investments. By contrast U.S. private investment in 
clean energy totaled $34 billion.
    Now the gap has widened further. The Brookings report also 
says this, China, which now produces half of the world's wind 
turbine and solar modules, recently announced it would 
accelerate its clean revolution over the next 5 years and has 
set out aggressive growth plans for strategic, emerging, 
industrial, critical industries, critical to economic 
restructuring, including multiple new energy categories, 
electric vehicles and energy efficient products.
    Do you have a comment on that?
    Secretary Solis. Mr. Cummings, I would just say that you 
can't compare $54 billion of investments from China as opposed 
to $500 million that I had for the first time in the Recovery 
Act. And my role is to provide training and skill assistance. 
It is not to find a job. That is why venture capitalists, that 
is why corporations, that is why business individuals make 
those decisions. They are actually making the risk to increase 
our capacity to go in the green sector.
    I would say that, just to remind folks, back in 2007, 
George Bush signed into law the Green Jobs Act program. He 
believed in it, as well, as well as many people that have been 
invested in this area for now more than a decade. I would just 
say it is something that we are obviously needing more 
assistance, more support. If we can compete with our friends in 
other countries, I think in the future it will bode very well 
for us.
    Mr. Cummings. Thank you, Mr. Chairman.
    Chairman Issa. I thank the gentleman.
    I now recognize myself. Madam Secretary, I am going to be 
brief. It is only $500 million, which in Washington is small 
dollars. Our point, I think accurately, Mr. Chaffetz made it 
well, and I am just going to summarize it, you spent $500 
million, you spent a lot of it on people who already had jobs. 
Of the people who didn't have jobs, you have about 6,000 who 
got jobs, at least as of today. And those jobs include people 
who are basically just working on modern diesel trucks and 
other things, which are--no, you said it yourself in your own 
testimony, it is broad training.
    So the statistics of the 6,200 or so who actually got jobs 
who didn't have jobs can well be on the periphery of what most 
people would consider to be green jobs. As a matter of fact, if 
they left that training and came to work for Mr. Cummings and 
they are here on the hearing today, they probably will end up 
being counted as green jobs.
    Which means I go to Dr. Hall. Dr. Hall, you have the big 
bucks. Was Solyndra and their 1,000 jobs counted in your 
assessment, I mean until they went bankrupt and laid everyone 
off?
    Dr. Hall. Well, what will----
    Chairman Issa. No, that is a yes or no, if you don't mind.
    Dr. Hall. Okay. I don't know.
    Chairman Issa. That is the third answer, and it is always a 
good one, if you don't.
    Your counting of these jobs, though, clearly includes 
people who are not in fact designing and building solar panels 
or doing other things which are truly green energy production, 
correct? It goes well beyond green energy production. Your 
figures include people who are working in the environmental, 
how to be kinder to the environment, that is in the written 
proof we have here, correct?
    Dr. Hall. Yes, one of our categories that we are collecting 
data is environmental compliance education and training and 
public awareness.
    Chairman Issa. Okay, so as the Government creates, just a 
bit more bureaucracy that forces more people to have to do more 
EPA compliance and studies and wasteful, sometimes, restudying, 
that all counts as green, right? So if the Government simply 
infinitely burdens business so they have to get a whole bunch 
more people to do a lot more studying to keep the Government 
happy, that counts as green jobs, correct?
    Dr. Hall. Well, one of our surveys is the green technology 
and practices survey. So we are looking at establishments----
    Chairman Issa. But we are looking at the accuracy of your 
numbers here today. We already have the proof that it costs a 
fortune to get very few jobs. Now we look at those jobs and 
find out that those jobs are broadly defined, so that you have 
a lot less real jobs created than even the pitiful numbers that 
it is showing. Now, when people want to tell me there is 2.5 
million, one of the problems is, yes, you get more money for 
working in green subsidized industry. You get more, and there 
are more people.
    But you know, the cost of producing electricity from solar 
electrics is so inefficient and expensive that you subsidize 
the production, you subsidize the development and then you 
subsidize the use. So what a surprise, you can afford to pay 13 
percent more.
    Let me just ask Mr. Poneman, Secretary Poneman, because you 
are the closest thing to somebody who has been in private 
enterprise here. China is doing all the things Mr. Cummings 
said. But they are not using green energy to do it. They are 
building more coal plants and buying more American coal than 
any other customer. The number one exporter of coal to China is 
us. The number one importer of coal in the world is China from 
us.
    So they are building windmills so we can subsidize them and 
buy them. They are building solar panels so we can subsidize 
and buy them. They are using low cost energy to be more 
competitive in selling us high cost energy. Isn't that 
basically the model at least as of today?
    Mr. Poneman. I would not presume to speak for the Chinese 
model, Mr. Chairman. But for----
    Chairman Issa. But you do know, it is not a secret, they 
are using coal-fired and nuclear to produce all that green 
stuff. They are not using solar panels to make solar panels.
    Mr. Poneman. They are now the world's leading producer of 
solar panels and----
    Chairman Issa. Producer, seller and exporter, correct?
    Mr. Poneman. As far as I know, sir, yes.
    Chairman Issa. Okay, so they are a great manufacturing 
nation.
    Mr. Poneman. Right.
    Chairman Issa. They are the number one manufacturing nation 
in the world. They took that from us while we were diddling 
around having higher costs of energy and bragging about the 
fact that if you have an inefficient form of energy rising, 
such as solar panels, for pure energy, and there are some 
places in which solar panels make a lot of sense. But in fact 
as a mainstream energy source, what we are doing is raising the 
cost of our energy while China is becoming, has become, the 
world's greatest manufacturer out from underneath us.
    Mr. Poneman. I can speak to the U.S. side. What we are 
doing, Mr. Chairman, is we believe we can reverse that trend.
    Chairman Issa. You are going to reverse it with higher cost 
energy?
    Mr. Poneman. No, no. We are going to reverse it with 
innovation, with the financial markets we have, with the best 
entrepreneurs in the world. And we are in the process of doing 
it, sir.
    Chairman Issa. It is amazing to me that you would say the 
financial markets. Mr. Cummings would probably be rather upset 
if you said our great financial markets after the hearings we 
have held since 2008. My time is expiring. This hearing is 
about the accounting for jobs. And hopefully as we go through 
this, both sides will focus on the jobs that are in fact not 
created, or in fact are only created through subsidies.
    With that, I recognize the gentlelady from the District of 
Columbia.
    Mr. Poneman. Might I just respond to the last comment?
    Chairman Issa. No, there wasn't a question. Thank you.
    Ms. Norton.
    Ms. Norton. Yes, Mr. Chairman, and this is about the 
accounting for jobs. And this is a very important subject, 
because this is the next iteration of the world economy. You 
don't get anywhere if you have already drawn your conclusions 
with a title that says how Obama's green jobs agenda is killing 
jobs. We want to know, we want ot find out the answers. This is 
supposed to be an investigative committee.
    When it comes to government investment and innovation, 
let's not pretend that that is new. That is as old as the 
American economy. The rail was laid before there were trains 
and people enough to go there, because of government 
investment. So that is something we have done, laid to your 
part of the country, Mr. Chairman, when there were very few 
people out there like yourself.
    You say in your testimony, at page 3, there are certain 
things that the private sector cannot reasonably be expected to 
do in a market economy, including undertaking investments in 
clean energy, etc., that primarily confer national benefits 
beyond the return to shareholders. That was the case with the 
rail industry, that obviously is the case with this new 
technology. The old industrial economy is now limited in its 
growth.
    So let's look, since many in this committee already know 
the answer, let's look to a genuine investigation. The Economic 
Policy Institute issued its report that concluded that the 
Recovery Act's investments at approximately $93 billion through 
the end of 2010 boosted overall GDP by $146 billion and created 
nearly one million jobs.
    Now, I recognize that China is a command economy, we are a 
market economy. And when we invest, it is a little more 
difficult than when they do. But they are underwriting billions 
of dollars in green technologies, trying to get out of the old 
coal economy that they are using. Because they have nothing 
else they can use.
    Is China also killing jobs by making such massive 
investments? Or are they cornering the market in these new 
clean technologies? Mr. Poneman?
    Mr. Poneman. Thank you, Congresswoman, for the question. It 
is a great danger that this great race that we are embarking on 
to build the energy of the future will not be built in America. 
What the investments we are trying to make are doing are trying 
to reverse that trend. In 1996, we produced 43 percent of the 
world's solar panels. We now produce 6 percent. We can reverse 
that with the kind of smart investments that we are trying to 
make under the Recovery Act and under the authorities that have 
been granted by this Congress.
    I want to be clear for the record that China is in fact 
using domestic solar as well as all the coal and nuclear. The 
fact of the matter is, they are using tremendous amounts of all 
kinds of energy and I think it would be a tragedy if we were to 
cede the playing field to our foreign competition in building 
the jobs for the future that should be here in America.
    Ms. Norton. Yes, precisely, because these are new and 
shareholders want to see a return on their investment. Private 
industry has never gone whole hog in leading the country. It 
has always been the other way around. What is the experience of 
other governments around the world in pursuing the green jobs 
agenda? Are they trying to corner the market as well and get 
ahead of us?
    Mr. Poneman. The governments that have been most active, 
Congresswoman, are the governments putting the largest dollar 
investments in. We have now slipped to third place in the 
world. We lost a place in just a year. We have been behind 
China. Now Germany has surged ahead of us.
    We can reverse this, but we are going to have to be really 
focused on moving capital into these new clean energy 
technologies.
    Ms. Norton. Can either of you say that what you have seen 
of green jobs has done more to kill it than to make or 
encourage green jobs in our country?
    Secretary Solis. Madam Congresswoman, I would just say on 
my visits around the country, I have actually seen job growth. 
And in areas where I have seen depressed and blighted 
communities come back to life, because now there are solar 
panel institutes, organizations that are actually compiling 
these kinds of materials and actually making production and 
creating jobs in areas that have been blighted. Not just that, 
but also in lithium batteries and also other new hybrid 
vehicles, even our automobile industry has been renewed. We 
have more jobs now in that area, and a potential for more cars 
that are going to be fuel efficient.
    So I do see that happening. But we can't compete with China 
and others when government, state-owned funds are being used 
and you are looking at small portions being utilized for 
training. Just to go back to the statement that the chairman 
said, our funding runs in cycles. So you can't produce a great 
number of job training participants in a matter of 1 year. It 
takes a cycle. You have to ginny up 6 months, then you get 
people into the training, the curriculum, you get the location. 
And these grants run anywhere from 2 to 3 years.
    So we are barely in the mid-point of our cycle. We expect 
to go up to 96,000 participants.
    Chairman Issa. We now recognize the gentlelady from New 
York, Ms. Buerkle, for her questions.
    Ms. Buerkle. Thank you, Mr. Chairman, thank you for calling 
this very important hearing, and thank you to our panelists 
this morning for being here.
    I just want to take exception, the chairman was, this line 
of questioning on coal. I think it is slightly disingenuous for 
you all to sit there and compare China as being the standard 
bearer for alternative energy and production of solar panels 
when in fact we have had people here from the coal industry, 
and we have heard first-hand the obstacles that are being put 
in their way for the production of coal.
    So we can't compare apples to oranges. We in this country 
are impeding the use of coal production and the use of coal, 
and in China, they don't have those standards. Those 
impediments are not put in the way of them and the use of coal. 
And they are using it then to produce these solar panels, which 
they can produce much more cheaply, as we have seen in 
Solyndra. So that is just a comment I wanted to make.
    I think it is very important to acknowledge, number one, 
when we talk about the fact that China and these other 
governments are infusing money into the industry, this is the 
United States of America. And we let the free market rule. It 
isn't a question of what the government can prop up. I think 
that is a real important distinction we should make here this 
morning.
    Now I will get to my questions. Thank you. Secretary Solis, 
can you just give me your definition of a green job?
    Secretary Solis. I believe that the Bureau of Labor 
Statistics outlined what we have been using as a guide for our 
program. So we look at opportunities where we can define 
through legislation what has been used typically as a green 
job. So something that conserves energy and also can recycle 
and also renew, renewable energy, something that is going to 
reduce our savings in terms of our efficiencies there.
    So we use that, we use what the BLS and what other data is 
out there. Typically we have also used what the Workforce 
Investment Act research guidelines have provided us, even 
before we began to take on this role of defining what green 
jobs are.
    Ms. Buerkle. Do you have one specific definition of a green 
job?
    Secretary Solis. I would say that what we look at in terms 
of our definition is exactly what the Bureau of Labor 
Statistics has outlined. So it is very large, we know it is 
broad, and we know that there are different sectors across the 
board that are impacted. So yes, you could have a business that 
is involved in providing maybe renewable energy, but you also 
have accountants and other individuals, financial folks that 
are also a part of that industry.
    Ms. Buerkle. Thank you.
    I want to just get into some of your testimony and what you 
have talked about here today. The certificates, or the 
credentialing that is given to a student who completes the 
program, how long is the program?
    Secretary Solis. The programs vary. We have programs that 
can run in length from say 6 weeks, 6 months to 1 year, 
depending on the kind of credential that you are seeking. And 
in many cases, for example, we have students here in the Job 
Corps program, they are enrolled typically in the program 
anywhere from 1 year to 2 years.
    During that timeframe, they can select which certificates 
they would like to be enrolled in to obtain that particular 
degree or certificate.
    Ms. Buerkle. And that certificate or that credential, is it 
recognized in the industry? Is it recognized by unions?
    Secretary Solis. Yes.
    Ms. Buerkle. Who recognizes it and what is it called?
    Secretary Solis. There are standards that are established, 
and we go by what has already been established through our 
department. And typically, in the apprenticeship program, for 
example, we have new definitions, new criteria that is actually 
being set up that I believe the BLS could probably elaborate a 
little bit more on in terms of looking into new industries like 
wind power, solar and other areas that are now becoming more of 
our vocabulary.
    Ms. Buerkle. I also want to follow up with some of your 
testimony with regard to the wages that a green trainee is paid 
versus a regular trainee. Can you just, what is the starting 
wage for a green trainee?
    Secretary Solis. It depends. You could have someone who is 
working, say, at minimum wage, and typically move up because of 
certificates, say, in LED, lighting and what have you. Those 
are, I think, one of the highest standards right now. If you 
can get those certificates, you actually will make a lot more 
money. And those salaries are obviously a lot higher than 
minimum wage.
    Ms. Buerkle. Do you know what the average starting salary 
is for one of these green trainees?
    Secretary Solis. It depends on what field you go in, 
weatherization can be very different from someone who is also 
doing, say, installation of solar power panels, and also re-
metering someone's home and putting them into a new electricity 
grid system. But I would tell you that overall, and according 
to the Brookings findings that I referred to, that the salaries 
are anywhere from say, 10 to 13 percent higher.
    Ms. Buerkle. Thank you. I see I am out of time. I yield 
back, and thank you, Mr. Chairman.
    Chairman Issa. I thank the gentlelady. Thank you.
    We now recognize the gentleman from Cleveland, Ohio, Mr. 
Kucinich, for 5 minutes.
    Mr. Kucinich. Thank you very much, Mr. Chairman.
    I would like to address my questions to Mr. Poneman. 
Because they also may relate to some information that Secretary 
Solis has, if you would like to join in, you can tell me.
    The main purpose of this committee is to be able to get the 
facts. And I just want to make sure I have my facts correct 
here. The loan guarantee to Solyndra was approved under a Bush 
administration program, the Energy Policy Act of 2005, is that 
correct?
    Mr. Poneman. Yes, sir.
    Mr. Kucinich. According to the September 14th testimony of 
Jonathan Silver, who is the current head at the Department of 
Energy's loan guarantee program, one, the Solyndra application 
was filed with the Bush administration in 2006; two, 2 years of 
extensive due diligence had been done by the Bush 
administration before President Obama took office; and three, 
before President Obama took office in late January 2009, the 
Bush administration had already set a time-line of March 2009 
for issuing a conditional loan guarantee commitment to 
Solyndra. Is this factual so far?
    Mr. Poneman. I was not here yet, but that is my 
understanding, sir, yes.
    Mr. Kucinich. Okay, and when the Department of Energy 
conditionally approved the Solyndra loan guarantee in March 
2009, it was doing so under a schedule established by the Bush 
administration, is that correct?
    Mr. Poneman. That is my understanding.
    Mr. Kucinich. And when Solyndra met those conditions, it 
was the closing of the deal that occurred in September 2009, 
the closing of the conditional loan guarantee commitment that 
had been scheduled by the Bush administration, they scheduled 
it for March 2009, for the closing?
    Mr. Poneman. My understanding, Congressman, is that the 
credit committee remanded the project for more work, and that 
they expected that more work would produce the answers that 
were then reviewed in March.
    Mr. Kucinich. Thank you. Now, the Department of Energy has 
approved dozens of other loan guarantees under this program, is 
that correct?
    Mr. Poneman. Yes, sir.
    Mr. Kucinich. And there is another solar energy company, 
First Solar, that has received a number of those loan 
guarantees, is that correct?
    Mr. Poneman. We are in the process of conditional 
commitments moving to financial close, First Solar has been in 
that pool, and I don't know which of the applications have gone 
to final close and which are conditional.
    Mr. Kucinich. But in fact, the loan guarantees that First 
Solar has received or is expected to receive by the September 
30th deadline total approximately 10 times the amount that was 
guaranteed for Solyndra, is that correct?
    Mr. Poneman. I would have to check and get the precise 
numbers for you, but that is easily done.
    Mr. Kucinich. Would you get those for the members of the 
committee?
    Mr. Poneman. Absolutely.
    Mr. Kucinich. Because according to a September 19th article 
in the Bloomberg News Service, First Solar, a company based in 
Tempe, Arizona, has ``achieved record efficiency for a thin 
film solar cell, and will incorporate the advance into its 
manufacturing technology next quarter to outpace cost 
reductions by Chinese rivals and compete against fossil fuels 
without government aid.''
    It seems to me this would be consistent with what the Bush 
administration Energy Policy Act of 2005 was intended to 
accomplish. Do you have any comment on that?
    Mr. Poneman. I would just say, sir, that scale is 
incredibly important in driving down solar panel prices. And so 
to the extent that they can build out at a much larger scale, 
it would have a tendency to drive down those prices and improve 
our competitiveness, yes.
    Mr. Kucinich. My staff just handed me some facts here about 
the First Solar loan guarantee amount, and I have First Solar, 
Inc., $680 million, First Solar, Inc., this is called Desert 
Sunlight, $1.8 billion, First Solar, Inc., Topaz Solar 
Generation, $1.9 billion. Just wanted to make sure that we 
understand that while the rest of the world looks to the future 
and prepares for it by ramping up dramatically its green 
sector, we are busy holding hearings like this, which end up 
impugning the President's expensive economy.
    Anyone who has listened to me for more than 15 seconds 
knows that I am probably the last Democrat who is an apologist 
for this administration. But this thing is really about our 
economy and this is about need and this is about the urgency. 
That should command our attention here above all else. I think 
that we actually have bipartisan support, judging from the 
record, for green energy programs. That is part of the path to 
the future to move the American economy.
    So as we move through this hearing, I hope that we can 
summon the same kind of energy to focus on how we can create 
millions of jobs with green and wind, solar, micro 
technologies, put America back to work.
    Thank you, Mr. Chairman. Thank you.
    Chairman Issa. Thank you, Mr. Kucinich.
    We now go to the gentleman from Michigan, Mr. Walberg.
    Mr. Walberg. Thank you, Mr. Chairman. I appreciate the 
opportunity to ask questions.
    I just can't let the statement that was put out earlier 
that we can never count on private sector manufacturing to lead 
the way in technology and growth. That is just unbelievable, in 
a country that has had the agricultural, industrial revolution, 
technological revolution, here. And that did not come from 
government. Henry Ford, in Michigan, down the road from me and 
my district, didn't produce the assembly line with the 
government mandating that, or even giving special money for it 
at the time.
    So that is frustrating to hear, Mr. Chairman, as we talk 
about these green jobs.
    I would like to do a followup question to Commissioner 
Hall. Do you count blue collar jobs?
    Dr. Hall. Sure. We don't make any distinction between what 
kind of jobs.
    Mr. Walberg. You don't count white collar jobs then?
    Dr. Hall. We count all the jobs. If an establishment is 
producing a green output, a green good or service, we count all 
the jobs in that establishment.
    Mr. Walberg. So then as we talk about green collar jobs 
today, what is the point of counting green jobs, or even making 
that metric? Why are we giving official legitimacy to such a 
dubious metric?
    Dr. Hall. We do make an effort, we do make an effort in our 
second survey, our Green Technology and Practices survey, also 
they are trying to count, people have jobs whose main job is 
green. So we have a green--we will capture some of that.
    Mr. Walberg. You may capture that, but it seems to me we 
want jobs. And attentiveness to green seems to be frustrating 
some of that.
    Let me ask Secretary Solis, and thank you for being here. 
How much of the green jobs training money has gone to organized 
labor since 2009?
    Secretary Solis. All of our grants have allowed for union 
participation. So if we had partnerships with businesses as 
well as labor, they were also involved in that. So the purpose 
here is to create the opportunities for the slots, as I said, 
so that we could train people.
    Mr. Walberg. Do we know how much money has gone to labor 
for green jobs since 2009?
    Secretary Solis. Well, I would say, depending on the 
different programs, because not all of them were just 
exclusively labor, I mean, that is not a number that I have.
    Mr. Walberg. Do we know the percentage increased or 
decreased over time of green jobs going to labor?
    Secretary Solis. Green job participation comes about 
because of the partners that apply for the grants. So you could 
have, for example, IBEW, for example, who did get a grant in 
partnership with the industry. And if you were to look at who 
is being trained, they could have been union members that were 
taking advantage and getting upgrades, or new individuals 
coming in. But they were working in partnership with the 
corporate community, the management side of it, that actually 
provides also for the additional training and scale.
    Mr. Walberg. Is there any evidence that these particular 
organizations, labor organizations, have expertise in training 
people in green jobs?
    Secretary Solis. Absolutely. IBEW is one of the premier 
apprenticeship programs and groups that actually provides very, 
very good credentialed programs. They actually have been the 
leaders, even before we gave them funding for these programs.
    Mr. Walberg. I would love to see the percentage, then, 
since 2009, of green jobs, training programs going to labor.
    Secretary Solis. Where we have had labor participation?
    Mr. Walberg. Labor participation.
    Secretary Solis. Because they are joint. They are joint. 
They are not exclusively for labor, they are joint.
    Mr. Walberg. Do the best you can, and I would appreciate 
seeing that.
    Secretary Solis. Thank you.
    Mr. Walberg. Just had the largest contact of information 
that I have ever had about rare earth. And I turn to Mr. 
Poneman for this. China produces nearly 90 percent of the 
world's rarest earth metals, many of which are used in green 
technology, such as wind turbines, hybrid car batteries and so 
forth. Recent Chinese policies have restricted access to these 
resources for American companies. How can American green 
companies obtain these necessary rare earth metals to 
manufacture in green technologies with that going on?
    Mr. Poneman. Thank you, Congressman. I just want to make 
one comment to be clear. I am not sure what the reference was 
to, but we believe that the free market of the United States of 
America is the most powerful engine of economic growth the 
world has yet seen. So I want to make sure we are clear, we 
think it is a tremendous driver.
    Mr. Walberg. I appreciate that.
    Mr. Poneman. On rare earths, this is a critical problem. We 
have looked at this deeply, and we have to do a number of 
things. Number one, we have to see where we can get production 
up in other places outside of China. Number two, we have to 
look at things that can be done in the processing of these rare 
earths, which sometimes have toxic issues, to make sure that we 
can use our technology to get access to them cleanly and 
safely. And third, we have to see if there are ways in which 
there are places where so far they are intrinsic to the product 
if we need to start finding alternatives to those rare earths.
    Mr. Walberg. But we are losing market share, we are losing 
opportunity for jobs by delaying this activity, when in fact we 
are using them in our products, up until China holding us back. 
With that, my time is expired. I appreciate your comments.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Tennessee, Mr. Cooper, for 
5 minutes.
    Mr. Cooper. Thank you, Mr. Chairman.
    You and I both know that the Chinese are watching this 
hearing. They are probably pleased. What they are seeing is 
more partisan bickering. Now, we don't know if the Chinese 
bicker, because they make their decisions in private.
    We are also seeing, I think, a false conflict between 
fossil fuels and renewable fuels. And that suits certain 
partisan motivations at this time in our democracy.
    I think most Americans are for the lowest cost fuel, 
period, including externalities. So far in this hearing, no one 
has made reference to the fact that you can barely breathe the 
air in Beijing, China, and other major cities. You can cut it 
with a knife.
    I am from coal country, I love coal. I want it to work. But 
we have also created a false sense that coal is the 
unsubsidized fuel. Mr. Chairman, you and I both know that coal 
has been subsidized for decades. In my area, clean coal has 
been subsidized for decades. I wish some of those efforts had 
been more productive, because it is hard to clean up coal. 
Maybe it is still possible. I haven't given up trying.
    But we are blessed with vast coal reserves. But it is hard 
to clean up that fuel.
    Now, global warming may be more controversial on your side. 
Most scientists agree that global warming is happening, and may 
even have a man-made cause. So carbon-based fuels, that is an 
externality.
    So Mr. Chairman, as you pointed out in an earlier letter on 
behalf of a constituent, and I by no means blame you for those 
efforts, it is very important that we don't create false 
conflicts between fuels, and that we make rational decisions 
about the best way to go. It has been established by testimony 
here today that the Chinese vastly subsidize renewables, more 
than we do by five or ten fold or larger, because we don't 
really know the Chinese numbers.
    Now the Germans are subsidizing it more than we are. Now, I 
would prefer the free market work entirely on its own. That 
would be great. We in Tennessee are blessed because a company 
called Hemlock, a private sector, American company, a 
subsidiary of Dow Chemical Co., not a dewy-eyed idealist in 
this field, has located thousands of green jobs in Tennessee. 
And I hope that Dr. Hall is counting those jobs. Volcker, the 
leading German producer of solar panels, has also created 
thousands of green jobs in Tennessee. And no one is ever quite 
sure why they located in the State, but perhaps the lack of a 
State income tax in Tennessee had something to do with it. And 
those States that want those green jobs, maybe they can have a 
more efficient State government and attract more industries.
    So there are some real opportunities here, Mr. Chairman, to 
help America have more energy choices, help us pick the lowest 
cost choices, including the externalities. Because nobody wants 
to live in a polluted, dirty air environment. No one wants to 
ruin the planet. And experimental Technologies take time, they 
take effort. And I don't know the stats, because they are not 
included in this hearing, but coal may have been one of the 
most subsidized fuels ever, if you look at the decades that we 
have spent subsidizing clean coal technology.
    So let's do our best to try to make rational decisions for 
the country. Hopefully we can get back on the right path. I 
think that again, one of the worst parts of hearings like this 
is that the Chinese see us fighting, they see the partisanship 
and they say, hey, maybe state capitalism, their version, is 
working better than our version. And that should please them. 
We have to make sure that democracy works better. And more 
balanced hearings, I think, can help us do that.
    Thank you, Mr. Chairman.
    Mr. Cummings. Would the gentleman yield?
    Mr. Cooper. I would be delighted to yield to the ranking 
member.
    Mr. Cummings. I thank the gentleman for his statement, 
because I think that you really put a focus on what we need to 
be focused on.
    But I want to go back to the Secretary. Madam Secretary, 
you were talking about training and that you see your role as 
making sure that people are trained. As a matter of fact, you 
said so that private industry can do its thing.
    And thing, Mr. Poneman, I have read your statement and you 
specifically say that, you said after all, the fountainhead for 
innovation and entrepreneurial activity is the private sector, 
not the government. I am reading from your written testimony.
    So define your role again for us, so we will be clear, as 
you see it as labor in this.
    Secretary Solis. It is to provide assistance, to facilitate 
the placement of employment and to make sure that we provide 
the necessary skills that industries, employers want. And that 
is where the gap seems to be. We are changing from a very 
heavily manufacturing and industrial society to one that is 
emerging into a cleaner, efficient, we are seeing robotics, we 
are seeing so many new applications. Technology in and of 
itself has reformed the way we do business. You need fewer 
employees to get things done. That also has an impact.
    But those individuals with more certificates, with more 
advanced training in the STEM area are the ones that have lower 
rates of employment. So our impetus is to make sure that we can 
spread the training and education so that everyone has choices, 
and not just a job but a career and a profession.
    Mr. Cummings. Thank you. Thank you, Mr. Chairman.
    Chairman Issa. Thank you.
    We now recognize the gentleman from Florida, Mr. Mack. And 
could you yield me 30 seconds?
    Mr. Mack. I would be happy to yield to the chairman.
    Chairman Issa. Mr. Poneman, I am going to be very brief. 
Mr. Kucinich went on for quite a while, apparently reading off 
of your Web site that has a time-line on Solyndra's loan. Don't 
you think it is disingenuous for that time-line to be quoted, 
when in fact what is missing from that time-line is January 
13th,when the Bush administration recommended killing that 
loan, and January 26th, when the Obama administration brought 
it back to life and funded it? Of 2009, in other words, one of 
the last acts of the Bush administration was to kill Solyndra 
as not a good idea. One of the first acts of your 
administration was to put it back in. And it is not on the 
site. Don't you think that is disingenuous?
    Mr. Poneman. With all due respect, Mr. Chairman, I don't 
think there is anything disingenuous.
    Chairman Issa. So you will leave out, so that a 
distinguished member of this committee can misconstrue what 
actually happened and state before this committee without your 
objecting that basically, this was all a time-line and they 
would have happened under Bush? I am sorry, but I don't have 
any more time and you don't have an answer on that.
    Mr. Mack.
    Mr. Mack. Thank you, Mr. Chairman. Before I begin, I want 
to show a quick little video.
    [Video shown.]
    Chairman Issa. If the gentleman will suspend, can we get 
that brought up to full volume before we begin again? I don't 
think anyone could have heard Vice President Biden. I 
apologize, audio and video is not always as good as it could be 
here.
    [Video shown.]
    Mr. Mack. He is saying that is full volume.
    [Video shown.]
    Mr. Mack. All right, well, since we really can't hear, 
basically what the Vice President has said is that they are 
going to, this loan, this company, there was going to be 1,000 
permanent jobs. So Mr. Poneman, are those jobs still permanent?
    Mr. Poneman. Regrettably, no, Congressman. But I want to be 
very clear about one thing.
    Mr. Mack. That is okay, let me just--well, go ahead.
    Mr. Poneman. On January 9th, the credit committee remanded 
for further consideration an additional due diligence to the 
Solyndra loan, it deferred it without prejudice, explicitly 
without prejudice. It did not in fact kill that transaction.
    Mr. Mack. Let me say this, then. Considering that when the 
Vice President made this announcement in September 2009, the 
Department of Energy already was worried about Solyndra, was it 
appropriate for the Vice President to promise that these jobs 
were permanent? Was it appropriate for that?
    Mr. Poneman. Congressman, at the time the Vice President 
made those statements there was every hope that those jobs 
would remain permanent, and we are trying to build a new 
economy that will have many more jobs like it.
    Mr. Mack. Didn't DOE and OMB have models showing that 
Solyndra would run out of money it needed to sustain itself by 
September 2011?
    Mr. Poneman. I am going to have to see the specific studies 
that you are talking about, Congressman. But as many startups 
have challenges, Solyndra obviously was no exception.
    Mr. Mack. We will make sure we get those to you.
    Mr. Poneman. Thank you very much, sir.
    Mr. Mack. The record is pretty clear on that.
    Secretary Solis, in your prepared testimony, you talked 
about a gentleman named Peter Reyes. Who is Peter Reyes?
    Secretary Solis. Congressman Peter Reyes is an individual 
that I met when I was touring a facility, a transportation 
facility up in San Jose. He was a worker there who was telling 
me about his experience. He worked in the banking industry, 
lost his job after many years and was trying to get into a new 
job. He was picked up by our training programs that we offer in 
the State of California, in San Jose, and became a part of the 
production there and actually is now a driver for one of their 
hybrid buses. So now he is making money, he is back at work.
    Mr. Mack. Did the U.S. taxpayers pay for that training, for 
his training?
    Secretary Solis. In part, yes. Yes, we did, along with the 
State.
    Mr. Mack. But here is the real question. What makes driving 
a hybrid bus a green job and driving another bus that is not a 
hybrid bus not a green job? I mean, bear with me here for a 
minute. Driving a bus is driving a bus, right? You turn the 
wheel, you push the gas, you use the brake, you use your 
blinkers.
    Secretary Solis. Pardon me but if you go back to the 
argument that is being made of how you substantiate the green 
industry, the vehicles that were built there are hybrid 
vehicles. They are fuel efficient. They are built in Oakland, 
CA. And these bases are being driven by individuals.
    Mr. Mack. Yes, but this is the bus driver. Here is the 
problem that I think people are having, that I am having. How 
can you call this a green job? If you sit in a chair, if I am 
sitting in a chair that was made out of green material, does 
that make my job green?
    Secretary Solis. He is in an industry----
    Mr. Mack. He is driving a bus, and to count it as a green 
job, we have heard on the committee from both sides. We want to 
be able to make some determinations here. But before we can 
make those determinations, we have to get at whether or not the 
information that you are giving us is accurate.
    Secretary Solis. It is accurate.
    Mr. Mack. No. Driving a bus, just because it is hybrid, 
doesn't make it a green job.
    Secretary Solis. Mr. Congressman, would you rather have 
that person unemployed?
    Mr. Mack. No, I would rather have them working.
    Secretary Solis. The taxpayers would have to pay for that, 
he is now paying taxes.
    Mr. Mack. No, I would rather you not try to smooth this 
thing over and make it a green job, when it is a job. Of course 
we want jobs.
    Secretary Solis. It is an industry that is green.
    Mr. Mack. But we don't want you to pull the wool over the 
eyes of the American people----
    Secretary Solis. I am not.
    Mr. Mack [continuing]. And tell them it is a green job when 
it is a job. And that is the problem here.
    Secretary Solis. It is in the green sector.
    Mr. Mack. So the administration wants to spend all this 
money creating green jobs, but yet you will count things that 
is a job.
    Secretary Solis. The industry itself where he is employed 
is fuel efficient. They are using new technology----
    Mr. Mack. Is his job green?
    Secretary Solis [continuing]. And the training he 
received--yes, it is.
    Mr. Mack. Driving a hybrid bus? So if somebody is driving a 
bus that is not a hybrid, is that a green job?
    Secretary Solis. I would ask you to refer to the 
definition----
    Mr. Mack. No, answer my question.
    Secretary Solis [continuing]. That BLS has provided us.
    Mr. Mack. If someone drives a bus that is not hybrid, is 
that a green job. You can't answer it.
    Secretary Solis. Transportation is used----
    Mr. Mack. It is only a green job if it fits into your sales 
pitch.
    Thank you, Mr. Chairman.
    Chairman Issa. I thank the gentleman and the gentlelady.
    We now go to the gentleman from Chicago, Mr. Quigley, for 5 
minutes.
    Mr. Quigley. Mr. Chairman, I yield to the ranking member.
    Mr. Cummings. Mr. Poneman, did you finish answering the 
chairman's question? There was a question that you were trying 
to give an answer to.
    Mr. Poneman. Yes.
    Mr. Cummings. Are you straight? Did you get it out?
    Mr. Poneman. Yes, sir, I just wanted to be clear that the 
matter was remanded without prejudice for further due 
diligence. And it was not killed outright.
    Mr. Cummings. And just one other question to Secretary 
Solis, could you just further elucidate on what you were just 
saying with regard to the truck driver? I understand that he is 
working for the industry.
    Secretary Solis. Bus. Yes, yes, and it is a transportation 
authority that has employed energy efficient vehicles that were 
purchased and manufactured in California. I would say to you, 
yes, this is a green sector job. It is one where he received 
training, I did outline that BLS, again, and BLS does in their 
analysis define mass transit industry as part of the green 
sector. So I don't understand why someone is trying to say that 
I am misleading the public, when we are not.
    Mr. Cummings. I yield back to the gentleman, and thank the 
gentleman for yielding.
    Mr. Quigley. Yes, reclaiming my time, Mr. Cooper did a good 
job discussing the fact that these other industries are 
subsidized too, talking about coal. Clearly, we know all too 
well about gas and oil and the subsidies there.
    The nuclear industry was massively subsidized, particularly 
at the beginning, given direct subsidies, patents, limits on 
liability, extraordinarily cozy oversight process. All these 
industries are difficult to get going, and we have to recognize 
that.
    But if the panel could take a few minutes and recognize, in 
addition to the subsidies to the existing manufacturers of 
energy, there is also a cost that we are not taking into 
consideration. I live in Chicago, which is the asthma morbidity 
and mortality capital of the United States. We have two coal-
burning power plants from the 1950's that are literally causing 
deaths there. So at least we could touch on the fact that there 
are alternative costs, not just the subsidies to these 
industries and to the green industries.
    Mr. Poneman. Thank you for that question, Congressman. And 
it responds also I think to Congresswoman Buerkle's question as 
well.
    We have massive amounts of coal in this country, and we are 
going to continue using it. It still provides about 45 percent 
of our electricity. But as you suggested, Congressman, we have 
to clean it up. Under the Recovery Act, we are investing $3.4 
billion in just that task, so we can get clean coal 
competitive, and clean our environment at the same time. As we 
are sitting here today, Secretary Chew is in an international 
meeting discussing carbon sequestration with other countries, 
so we can not only be competitive but get the best technology 
deployed so we can clean up the coal and continue to get the 
electricity from it, but also preserve our health.
    Mr. Quigley. Thank you.
    Let me move on to something else. The American Energy 
Council, Innovation Council led by Bill Gates, is urging us in 
Congress to make smart Federal investments in clean energy 
research and development. Now, he is backed by many other CEOs, 
including Bank of America Chairman Chad Holliday, CEOs and COOs 
who are asking Congress to infuse our economy through Federal 
investment in these sorts of programs. So I guess if you don't 
necessarily believe what you deem a liberal Congressman from 
Chicago, there are national experts in private industry, 
industry leaders who agree with what you are trying to do.
    Mr. Poneman. Congressman, this is a very important study. 
Because these are innovators, these are the people who not only 
know that private capital is the driver of innovation and 
growth, but they have actually done it successfully and they 
say where there are certain market imperfections, that is the 
place for government to play a stimulative role, correct those 
imperfections and help get the new green economy built and win 
America's future.
    Mr. Quigley. Thank you, Mr. Chairman. I yield back. I yield 
to Mr. Connolly.
    Chairman Issa. The gentleman yields.
    Mr. Connolly. Thank you for yielding.
    The premise of this hearing is, how Obama has, the green 
energy program has killed jobs. So how many jobs have you 
killed, Secretary Solis?
    Secretary Solis. We have actually helped to create jobs. 
And in that we are training individuals.
    Mr. Connolly. So the premise is wrong?
    Secretary Solis. In my----
    Mr. Connolly. Are you familiar with the Council of State 
Governments that says in one quarter alone we created, last 
year, we created 51,000 green jobs? That is not the Obama 
administration saying it, it is the Council of State 
Governments. I would ask that this be entered into the record 
at this point.
    Chairman Issa. Without objection.
    Mr. Connolly. I thank the Chair.
    Chairman Issa. At this time I would like to ask unanimous 
consent that we include in the record, based on testimony, the 
email produced by OMB from January 13th, which says in part, 
``After canvassing the committee, it is a unanimous decision 
not to engage in further discussions with Solyndra at this 
time.'' Also, the January 26th email, which says in part, well, 
I will just leave it as, it goes the other way, and the March 
10th one which says in part, ``DOE is trying to deliver the 
first loan guarantee within 60 days from the inauguration. The 
prior administration could not get it done for 4 years.''
    Without objection, so ordered.
    Mr. Cummings. No. Objection. Only because I don't have it.
    Chairman Issa. Well, you don't have something until I ask 
to have it put in the record. It has been produced.
    Mr. Cummings. Well, I mean, I can't. I object to something 
that I don't see. I just want to see it.
    Chairman Issa. Here you go.
    I ask unanimous consent to----
    Mr. Cummings. I object until I can see it.
    Chairman Issa. Mr. Poneman, are you aware of these emails?
    Mr. Poneman. No, sir, I am not.
    Chairman Issa. Even though they were DOE emails?
    Mr. Poneman. I did not arrive until, I was sworn in in May, 
sir. But I would be happy to review anything you wish to have 
reviewed, sir.
    Chairman Issa. Okay. I would ask you to verify these for 
the record. I will mention in part, if the gentleman has no 
further objection, that they were produced to the Energy and 
Commerce Committee, and these are copies we received from them.
    With that, we go to the gentleman from Texas, Mr. 
Farenthold, for 5 minutes.
    Mr. Farenthold. Thank you very much. And I did want to talk 
a little bit about the green jobs.
    I am all for jobs, whether they are green, brown, pink, 
purple, yellow. It doesn't matter. But it seems like, again, 
and certainly as somebody from Texas, this really hits close to 
home, that we are focusing on green jobs at the expense of the 
traditional oil and gas industry and traditional petrochemical, 
coal, and the like. I am a supporter of an all of the above 
energy policy, but we see all of this effort going into what is 
a green job and what is not a green job in generating energy, 
which is the key to this economy.
    So I want to ask Mr. Poneman, the CRS has reported that the 
United States has access to more energy and natural resources 
than any other country in the world. Do you agree with that?
    Mr. Poneman. I would have to see the study, sir. But we 
have tremendous Resources in hydrocarbons, natural gas, oil and 
coal as well as the other resources.
    Mr. Farenthold. Do you believe we should forsake those 
resources for green energy?
    Mr. Poneman. Absolutely not, Congressman. I am glad you 
called for an all of the above policy. We strongly believe in 
that, and I think we are putting everything in place to promote 
our hydrocarbon sector as well as these. We need all of these 
energy sources.
    Mr. Farenthold. How do you then explain some of the 
policies that we see coming out of this administration with the 
slow-down in leasing, the permitorium on offshore drilling, a 
call for punitive taxes on the oil and gas industry?
    Mr. Poneman. Congressman, I think we actually have a very 
strong policy. Of course, we, and I am sure you as well, want 
us to exploit these resources safely and to take into account 
best practices and learn the lessons from Macondo. But we are 
proceeding with offshore and onshore leasing. I have just 
participated in a new interagency committee the President 
mandated to look at Alaskan resources. And we intend to have a 
very robust policy. We had the Secretary of Energy Advisory 
Board just look at the natural gas sector and make sure that as 
we proceed with a prodigious shale gas resource that we proceed 
in a responsible, open, transparent manner so we can continue 
to enjoy the confidence of the American people.
    Mr. Farenthold. So you are suggesting that some of these 
new technologies for the shale gas that have been used in Texas 
for as much as 60 years aren't fully understood?
    Mr. Poneman. I am saying that I think we have a very good 
report in from an expert committee that talks about things we 
could do to improve the public transparency so we have a wide--
--
    Mr. Farenthold. Well, let me go on, because I have another 
line of questioning and I have used up more than half my time 
already. Mr. Poneman, are you acquainted with a gentleman by 
the name of Steve Spinner?
    Mr. Poneman. It does not ring a bell.
    Mr. Farenthold. Well, a Department of Energy spokesman told 
the Los Angeles Times last Friday that Mr. Spinner acted as a 
liaison between the Recovery Act office and the loans program 
office. His LinkedIn profile claims that he reported to the 
Secretary and was responsible for strategic operations of loan 
and loan guarantees, including renewable energy. As the Deputy 
Secretary of Energy, you didn't know him?
    Mr. Poneman. No, your references, I think I may have met 
him, yes. I am not sure.
    Mr. Farenthold. So you didn't interact with him frequently, 
though?
    Mr. Poneman. It would have not have been somebody I dealt 
with well enough to remember, no.
    Mr. Farenthold. Well, Mr. Spinner was the CEO of a sports 
and fitness company and an investor in internet companies 
before working at the DOE. So no one ever questioned his 
qualifications to come to the DOE?
    Mr. Poneman. I don't know that, sir, but I am happy to 
check.
    Mr. Farenthold. Were you aware that Mr. Spinner was also a 
bundler for President Obama, raising over $500,000 for Obama's 
2008 campaign roll?
    Mr. Poneman. No, sir.
    Mr. Farenthold. All right. Thank you very much. With that, 
I will yield back.
    Mr. Mack [presiding]. Thank you. Actually,would the 
gentleman yield?
    Mr. Farenthold. Sure.
    Mr. Mack. Again, I want to follow back upon this question 
about green jobs. I think we want to, whether it is like 
someone earlier said, we just want to create jobs. But we 
certainly don't want to make an appearance to the American 
people that a program is working by padding the statistics. 
Madam Secretary, with all due respect, the idea of counting a 
job as a green job for driving a hybrid bus is, when people 
watch this hearing, it is offensive. It is offensive because 
they know that they are not being told the truth. And they want 
the truth. The American people are smart. And if you give them 
the truth, they can determine whether or not this is a good 
thing or not.
    But if you pad the numbers to try to make it look better 
for you, at the expense of the taxpayers, it is offensive. So 
we want to have a debate about whether or not it really is 
working. But when you pad the numbers in such a way, it is very 
difficult to have a debate about that. My time is expired.
    The gentleman from----
    Mr. Cummings. You just called her a liar, basically.
    Mr. Mack. I didn't say that.
    Mr. Cummings. Yes, you did. Let her answer.
    Mr. Mack. Mr. Welch, you are recognized for 5 minutes.
    Mr. Welch. Thank you, and I will start out by letting you 
answer the question.
    Secretary Solis. Thank you, Mr. Welch. I would just say 
again, in reference to the BLS, they do identify mass transit, 
this industry, as a part of the green service area. When it 
reduces pollution or conserves natural resources, that is 
exactly what the buses are doing. That is exactly what the 
vehicles that were built in California and were remanufactured, 
this is a whole new industry. And I think that it is a positive 
direction that the President has outlined that we should be 
making investments in.
    Mr. Welch. Right, thank you.
    I agree with many of my colleagues on both sides of the 
aisle that any job, we need energy, any jobs we can create in 
the energy sector, we should. Governmental policy is very 
active in the carbon-based energy field. There is now some 
activism in the so-called green sector.
    By the way, China, as I understand it, is making massive 
investments and creating hundreds of thousands of jobs.
    I also think it is a fair question that Mr. Mack asked, how 
do we do the accounting. People want to have credibility on it. 
I have no reservation whatsoever trying to figure out, what do 
you want to call a green job. Some are more questionable than 
others. That probably is true in the carbon energy field as 
well.
    But it is a fair point, I think, and I would encourage our 
Department to work so that we are all talking off the same 
page.
    But I just want to give an example of something that is 
really working in Vermont. There is a lot of focus on Solyndra, 
got to get to the bottom of it. I understand one of the issues 
there is that the investments that China made really plunged 
the price of solar panels, and it created a real advantage for 
China, which manipulates its currency to the detriment of 
manufacturers here. That might be an issue that we want to work 
with together. Because whether you are doing solar panels or 
you are making batteries, if there is a currency manipulation 
by China that is putting our hard-working manufacturers at a 
disadvantage, we have to get together on that. I would like to 
work with my colleagues to see if we can get more manufacturing 
jobs here.
    But this is a Vermont story. It is a great story, Vermont 
scale. I recently visited a DOE grant recipient, it is called 
Neighbor Works in Rutland. It received a $4.5 million grant. 
There was a lot of excitement. In Vermont, we have contractors 
out of work, like we have all around America.
    And what Neighborhood Works has done is started a revolving 
fund with that grant to help provide home energy efficiency 
retrofits. We have gotten 150 homes retrofitted, 170 in 
progress. The goal is 1,000 by the end of the 3-year grant. 
That is 5 percent of the entire housing stock in Rutland 
County. So it is a big deal for us.
    And it is saving the homeowners about $913 a year. That is 
real money in Rutland County. And when I was there, I got a 
tour of actual work that was being done in some of these old 
buildings. And I was also at a class where we had scores of 
local contractors who were getting updated on what they could 
do to get basically in their market.
    So I just want to cite that. It is not Solyndra scale, but 
it is real-world scale in Rutland, Vermont. It has local people 
doing the administration. It has local homeowners who are 
lining up to get the opportunity to retrofit their homes and 
save the money. And it has local contractors who are 
desperately looking for work.
    So let me just ask you, let me say thank you that is 
working. Secretary Solis, can you tell me if in your survey it 
is the case that it is the construction workers that are 
probably getting hit harder or as hard as any other sector in 
our economy, and how this plan might be helpful to them?
    Secretary Solis. It is very true. In fact, we have in the 
audience here some individuals who represent the business 
industry and apprenticeships where they are retrofitting 
commercial buildings and homes. And we have individuals here 
that are also working in other segments in, say, hospital care 
where they are learning to conserve and re-use and provide 
other efficiencies. Efficiency is one of the definitions that 
the BLS has outlined. So yes, it falls very much in line with 
that. And we are going to see more jobs like that created.
    We are making the transition from blue collar to green. 
That is what it is. So it still could be very intensive, 
manufacturing, construction, yes. But there is a new component 
to it.
    Mr. Welch. Last year when I served on Energy and Commerce 
with you, Mr. Barton was extremely helpful in trying to push 
energy efficiency. I hope we can find some common ground and do 
that here. So I thank you. I yield back.
    Mr. Mack. The gentleman's time is expired. Mr. Lankford is 
recognized for 5 minutes.
    Mr. Lankford. Thank you.
    And thanks for being here, and the conversation, this is a 
big deal. Obviously we are tracking jobs, this is important to 
us, and how it is done and how we classify it. This is a new 
category that has been created, green jobs. Obviously you all 
are struggling through how to define whether, if someone 
changes from an incandescent bulb to fluorescent bulb, now they 
are suddenly a green job, where last week they were a 
janitorial job, now they are a green job janitorial job. All 
those dynamics fit into this as we are trying to find a clear 
definition to really get a real handle on what this is.
    So I appreciate the work you are doing on that. And I press 
on, because we want to have a good definition that we can all 
agree upon at the end of the day. We have to determine where 
these dollars are going.
    Mr. Poneman, let me ask you as well as about clean energy. 
How are you defining, is there a list that is working from the 
Department of Energy, these are clean energy sources?
    Mr. Poneman. No. We don't do it that way, Congressman. We 
are trying to build a future. We are trying to build, as your 
colleague was saying, all of our energy Resources, absolutely 
including those that have no and low carbon and everything from 
nuclear and hydro through the renewables.
    Mr. Lankford. Okay, so I am assuming solar is a clean 
energy, wind is a clean energy, hydroelectric, clean energy.
    Mr. Poneman. Yes.
    Mr. Lankford. Biofuels. Would geothermal be considered a 
clean energy source?
    Mr. Poneman. Yes.
    Mr. Lankford. Natural gas use?
    Mr. Poneman. It is better than coal, because of course it 
only has half of the greenhouse gas emission. So that is a 
significant improvement in terms of the greenhouse gas 
emissions.
    Mr. Lankford. Based on where we are with research and the 
progress we are making, in the next 20 years, could we be at a 
spot 20 years from now on our current trend in where things are 
moving to have 80 percent of America's energy be produced by 
clean sources?
    Mr. Poneman. Electricity. We believe, the President has 
called for this, by 2035 we can have 80 percent of our 
electricity from clean sources, yes.
    Mr. Lankford. And where would you define clean sources? Is 
that natural gas power plants, solar, wind? Where is that 
coming from?
    Mr. Poneman. Obviously anything that has zero carbon 
emissions, that counts completely. Then for example if 
something has half the greenhouse gas emissions of coal, as 
natural gas does, as a matter of logic, I would impute that 
much to it.
    Mr. Lankford. And that is the challenge, is that obviously 
he has called for that in the State of the Union Address. The 
challenge then is, how do we define what energy sources are in, 
what is out on that one. So at this point, has it been defined, 
this is the clean energy source, so this is going to be 
included in that 80 percent target?
    Mr. Poneman. I think when we contemplate getting the 80 
percent, it would give that kind of credit to natural gas, as 
well as of course the carbon free sources would be counted as 
well.
    Mr. Lankford. What about solar? What percentage do you 
think of electricity will be produced by solar 20 years from 
now?
    Mr. Poneman. It depends. We have the sunshine initiative, 
we are trying to drive down costs so it would levelize the cost 
of electricity from solar is the same. We think it is growing. 
We have 887 megawatts that went in last year, that was double 
the year before, 435. So it is going up.
    Where exactly it is going to be in 2035, I couldn't tell 
you.
    Mr. Lankford. The challenge that I go back to, because when 
I heard the President say that in the State of the Union on 
address, my mind immediately went back to 1979, and I remember 
President Carter making a very similar statement. I went and 
researched that and pulled that, and in 1979, President Carter 
said, by the year 2000, 20 percent of America's electricity 
will be produced by solar power. That was the initiative in 
1979. Obviously we are not at that point, and we are 11 years 
after that target. So we are going to have to greatly expand 
what is clean energy to be able to hit some of these targets we 
are talking about with this 80 percent number.
    Mr. Poneman. It is an ambitious goal, sir, but I believe it 
is one we can reach.
    Mr. Lankford. Well, it is one that we have heard before, 
obviously, in 1979. By the way, I am not against solar power or 
wind or all that. I hope my car runs on pinwheels 1 day. That 
would be great.
    But in reality, what we really have is functioning 
traditional fuels. I am concerned that there is this push 
toward the green energy jobs to the detriment of traditional 
energy sources that could be successful in things.
    Let me just mention one thing, too. Our committee has asked 
you for some documents on a subcommittee study that you put 
together on hydraulic fracking from the Department of Energy. 
Do you know when those documents are going to be completed, 
coming back to our committee?
    Mr. Poneman. I do know, sir, some documents have been 
provided.
    Mr. Lankford. Right. Some have. Just the complete set, do 
you know when those are coming?
    Mr. Poneman. I know that our staff is working with yours, 
and I am happy to talk to them when I get back to the 
Department. I am sure they are engaged and we want to make sure 
that you get those.
    Mr. Lankford. Obviously, it has been months in the process 
of their request on that. We would like to have that done. 
There are a lot of folks in the natural gas industry that are 
very concerned about the number of studies and committees that 
are suddenly rising up on hydraulic fracking.
    Mr. Poneman. Right.
    Mr. Lankford. Mr. Farenthold mentioned before, in Oklahoma, 
we have used hydraulic fracking since 1949. We have done it 
more than 100,000 times, we have fracked the earth in Oklahoma. 
We have great water, beautiful land and air. It is a great 
State to be able to be in for our natural resources there. And 
we have experienced what happens with natural gas fracking and 
with oil fracking, we have seen it.
    Even you had mentioned in your testimony about since 1970, 
the Federal Government has been involved in helping with the 
fracking process, and the technology of that. Our State 
Department currently is helping governments all over the world 
learn how to be able to frack, while at the same time, DOE and 
EPA and others are studying fracking to determine whether it is 
safe here and how to regulate it more and that.
    So this push and pull between, are we pushing green jobs so 
quickly and in studying and trying to put boundaries around 
traditional energy that we are going to choke off traditional 
energy and try to force the rise of green energy, that is part 
of my concern. If we are going to do all of the above, we have 
to do all of the above and make sure that we are doing them all 
well.
    Mr. Poneman. On that last point, sir, it is an excellent 
point. We have a prodigious gas resource we are getting from 
having only had 1 trillion cubic fee of shale gas in 2001, we 
are now over a quarter of our natural gas comes from those 
tight shale gas deposits. The critical thing, as I think we all 
agree is, we have to make sure we do it in a way that is 
transparent and open so the American people can continue to 
have confidence in that prodigious energy resource.
    Mr. Lankford. Correct, but we can't in the process choke 
off investment in that area, that suddenly there is a 
transition. We have to be able to say, if it is there, it si 
there, let's go after it.
    With that, I yield back.
    Chairman Issa. I thank the gentleman.
    The gentleman from Massachusetts, Mr. Tierney is recognized 
for 5 minutes.
    Mr. Tierney. Six minutes or 5 minutes? I just wondered if 
we are going to continue the trend.
    Chairman Issa. Only in the usual way, Mr. Tierney, in which 
the last question comes in with a half a second to go and the 
answer takes that minute. And I expect that will happen.
    Would you please reset the clock?
    Mr. Tierney. I think part of what we are talking about here 
is whether or not this premise of the hearing is, whether a 
green agenda kills jobs. To me it seems a bit of a suspect 
statement, if not totally political. I think we ought to really 
be asking whether or not investments in green energy are useful 
or not.
    And I look, and I see that China seems to think that it is. 
Truth of the matter is that China is now number one, it is the 
highest public market for financing in clean energy, the 
sector. We are number three. We used to be number one. We are 
number three now, behind China and Germany. China has secured 
$47.3 billion in asset financing in 2010 for clean energy 
projects. We had $21 billion.
    Sixty percent of all clean energy technology IPOs in the 
world in 2010 were from Chinese companies. China has created 16 
national energy research and development centers and 10 are 
specifically to drive innovation in the clean energy sector. By 
the end of 2011, national Chinese research and development 
expenditures are expected to rise 11 percent over levels 
earlier this year. And there has been a 600 percent increase in 
the number of college graduates in science fields in China 
between 1995 and 2005.
    So the truth of the matter is that China certainly thinks 
that creating jobs and moving forward by investing in green 
technologies is, as Mr. Quigley stated, the Economic Council of 
the President, Jeffrey Inmault, Norman Augustine, Bill Gates, 
and others, all down the line, they think it is an investment, 
that there should be some public support for what the private 
industry is doing. They asked for $16 billion in general clean 
technology investment and asked for a specific $1 billion for 
the energy advanced research program on that initiative.
    So there are a lot of people, a host of people that really 
believe that this is an investment worth making to support what 
the private industry would on that. I think it is a shame we 
are sitting here while China charges ahead, while Germany 
charges ahead and we fall further behind. We are still arguing 
about whether making an investment in clean technologies is 
killing jobs, something like that. It just doesn't seem right.
    And I think we should investigate what the role of 
different people has been in supporting this. But I just take a 
note in the newspaper this morning, there are a bunch of 
article in the press suggesting that 10 Republican members of 
our committee wrote letters to the Department of Energy 
praising loan guarantee programs. They were glowing in their 
terms, they were looking for funds for various projects in 
their district. So apparently nobody wants to pick winners and 
losers unless we can pick winners in a specific district on 
that.
    Let me read from one of the stories. It is an article that 
ran last night in Energy Daily. ``In one letter dated October 
30th, 2009, Representative Dan Burton,'' our colleague here who 
is the second ranking Republican on the committee and its 
former chairman, ``joined 10 Indiana Members of Congress to 
express his support for loan applications submitted by Abound 
Solar.''
    Are you familiar with Abound Solar, Mr. Poneman?
    Mr. Poneman. Yes, sir.
    Mr. Tierney. According to your Web site, they got a $400 
million loan guarantee under the exact same loan guarantee 
program as Solyndra. Is that true?
    Mr. Poneman. Same program, yes, sir.
    Mr. Tierney. And what your Web site says, the Department of 
Energy offered Abound Solar Manufacturing, LLC a $400 million 
loan guarantee to manufacture state-of-the-art thin film solar 
panels. The project includes two facilities, one in Longmont, 
Colorado, and the other in Tipton, Indiana. Is that right?
    Mr. Poneman. As I recall.
    Mr. Tierney. So Mr. Issa says that doing things like that 
is kind of a back door corruption. Do you think that a Member 
sending a letter in support of a constituent company suggesting 
that they might benefit from a program like this is some sort 
of corruption?
    Mr. Poneman. Let me be very clear, Congressman----
    Mr. Tierney. I don't think it is.
    Mr. Poneman. We welcome all correspondence from Congress 
and treat it respectfully. However, when we are looking at 
these proposed loans, we analyze them purely on the merits.
    Mr. Tierney. Well, one would hope. So on the one hand, we 
have those 10 Members putting in a letter and suggesting it go 
to their company in their district. And the next night they are 
on Fox News saying the whole green thing is a scam in the first 
place. I guess we will have to go those Members and decide 
which it is.
    I noticed that our chairman, Mr. Issa, who talks about this 
being a job killer and back door corruption, himself wrote a 
letter to the Secretary of the Department. I just quote from 
the first part, ``I write to express my support of Aptura 
Motors,'' an application for a loan under the Department of 
Energy's 136 Advanced Technology Vehicles Manufacturing 
Incentive program, ATVMIP. Later on there he says Aptura's 
project will also promote domestic job creation.
    So apparently on the one hand we are having a hearing about 
whether we are killing jobs. But when it comes to a company in 
our district we are suggesting that they are going to promote 
domestic job creation if we make the right investment.
    I would like to turn this hearing into, how do we make 
smart investments like the President's Council talks about, and 
how do we do that. Secretary Solis, when we make smart 
investments, if we are going to try to catch up to China and 
Germany, take advantage of all our innovation in this country, 
it would be useful, I would think, to have some people who can 
actually do those jobs. Is that correct?
    Secretary Solis. Congressman, that is what we are hearing 
from the industry right now, that we don't have enough 
qualified individuals in this new technology.
    Mr. Tierney. So what the Department of Labor is doing 
basically is not creating the jobs, you are training the people 
for the jobs that are created?
    Secretary Solis. I have said that from the start.
    Mr. Tierney. And how has your record been on that?
    Secretary Solis. Well, we are now, for our $500 million 
that we have received through the Recovery Act, we have already 
trained up 52,000. Our goal is about 96,000. So we are more 
than halfway there. And I would say our numbers are growing, 
because these are 3-year, 2 and 3-year projects. So you have to 
consider when the startup began.
    So I think we are on the road to slow recovery. As soon as 
the economy and venture capitalists feel that there is a way to 
go, then I think you are going to see those jobs there, and we 
will have trained individuals ready for them.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Tennessee, Mr. DesJarlais.
    Dr. DesJarlais. Thank you, Mr. Chairman.
    I was just listening to the conversation here about whether 
we are----
    Chairman Issa. Would the gentleman suspend? I apologize. 
Okay, the gentleman will wait. Go ahead, please.
    Dr. DesJarlais. Just getting back to the subject of 
listening to Mr. Tierney, and we are talking about whether we 
are killing jobs or are we creating jobs, are we making smart 
investments, you have to forgive me, I come from the private 
sector and I am new. So I have a little bit of difficulty 
understanding how government jobs are profitable.
    But Secretary Solis, how many people with green jobs 
training have green jobs?
    Secretary Solis. I would say the number of participants 
that have gone through what we are talking about here is 52,000 
individuals that went through our green jobs programs. Not all 
of them have been placed in jobs yet, but many of them were 
incumbent workers currently employed and were upgraded, so they 
got other certificates.
    Dr. DesJarlais. So you may just answer this, what fraction 
of the graduates of green job training programs have since 
obtained green jobs?
    Secretary Solis. The percentage, well, I will give you a 
number of individuals that have been placed in jobs, that is 
about 8,000.
    Dr. DesJarlais. Okay. How are people selected for green job 
training? Do people opt for green job training instead of 
normal training, or is this a government decision?
    Secretary Solis. It is not a government decision. As I said 
earlier, these are partnership grants that are based on market 
based information. So you have businesses that will work in 
conjunction with, say, a community college or another 
individual group. And they will decide where the needs are 
based on facts and information. We then monitor that. It is a 
competitive process. We do not pick the winners and losers. 
These are individuals that compete State-wide and in some 
basis, nationally.
    Dr. DesJarlais. Okay. You are familiar with the Davis-Bacon 
Act?
    Secretary Solis. Yes, I am.
    Dr. DesJarlais. A key part of President Obama's American 
Jobs Act is creating jobs to rebuild or repair at least 35,000 
schools. Do you think that waiving Davis-Bacon requirements on 
school construction has any merit?
    Secretary Solis. I think that the Davis-Bacon Act was, 
provided many decades ago through a Republican administration, 
and it was basically to keep wages at a good, balanced level so 
they wouldn't be driven down with outside individuals coming in 
from say, other neighboring States or other places. So I do 
believe that it does provide a good quality of, how could I 
say, salary for individuals in a competitive market. Yes, I do 
agree.
    Dr. DesJarlais. So you are familiar with the George Mason 
University study that basically concluded that suspension of 
the Davis-Bacon Act would have created about 55,000 additional 
jobs federally, because the way they made their calculations, 
they were paying on the average of about 6 percent higher than 
market rates?
    Secretary Solis. I am not familiar with the study. I know 
there have been individuals and different groups that have said 
that Davis-Bacon may have an impact in raising wages. But I 
would tell you that what our Department does is a wage survey. 
So we base it on what that sector is providing in the 
neighboring areas and we come up with a medium. That is how we 
base our Davis-Bacon rates.
    Dr. DesJarlais. So do you think green jobs to this point, 
the money invested, as Mr. Tierney says, are we making smart 
investments? Are we showing a profit with these government 
jobs?
    Secretary Solis. They are not government jobs, Congressman. 
I have to remind you that we don't create government jobs. We 
are actually helping to train individuals who will then be 
available for private sector jobs. Or if, say, they are working 
for a local government, they may be hired up to work in that 
particular part that is green. So I am not the actual creator 
of a job; we help to train them.
    Dr. DesJarlais. I think sometimes we focus so much on the 
fact that unemployment rates are high and we need to create 
jobs. But we often spend a heck of a lot of money, we did so 
with the first stimulus, and we are staring at possibly 
stimulus 2 here. It reminds me of a story, I am from southern 
Tennessee, right on the Alabama border. There is a story about 
a farmer who decided to sell watermelons at the market. So he 
found a watermelon just across the line in Alabama and he would 
go load his truck up and buy the watermelons for a dollar, and 
he would bring them back to Tennessee and sell them for 75 
cents. He did that a few times, and clearly wasn't turning a 
profit. So he came to the conclusion he just needed a bigger 
truck.
    Sometimes when we look at these jobs, green jobs and how we 
are spending stimulus money at an incredibly high rate for an 
overpriced, sometimes overpaid jobs, I am just wondering if we 
are solving the problem of our debt crisis or if we are just 
making it worse.
    Secretary Solis. I had an opportunity to visit Tennessee 
almost a year ago and visited the Sharp industries there and 
was very impressed to see the kind of training and the diverse 
work force there that were involved in solar panel development. 
And the owner of the plant there, as you know, is from another 
country. However, their employment there helped to provide a 
substantial number of good-paying jobs there.
    I asked him, what will it take for you to continue to 
expand? Because we obviously want to see this industry grow. 
And he said, well, what we would like to do is be able to open 
two or more factories, but we know that we have to have a 
demand. So they are very interested in seeing expansion of that 
particular plant. But to see people who are in another industry 
that was dying, because they were making plasma TVs and other 
things, now they are into solar panels, this was a job creator. 
And clearly, the individuals that make the decision to create 
that industry there in Tennessee where unemployment rates are 
very high I think was a very good decision.
    Dr. DesJarlais. Did you get any good deals on watermelons?
    Secretary Solis. I didn't stop to have one.
    Chairman Issa. I thank the gentleman and the gentlelady.
    We now go to the gentleman from Virginia, Mr. Connolly, for 
5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman. And my friend from 
Tennessee began by saying he didn't understand how public 
sector jobs could help an economy. I find that odd, given that 
Tennessee has benefited from Federal investments in Oakridge 
and created actually incredible intellectual capital that has 
generated technologies and jobs and fostered an economy. To say 
nothing of, going further back, the Tennessee Valley Authority, 
which created jobs with a strategic investment by the Federal 
Government and then transformed an entire region then allowed 
it to develop economically.
    Other than that, he is right, public sector investment in 
public sector jobs makes no sense.
    The premise of this hearing----
    Dr. DesJarlais. Will the gentleman yield?
    Mr. Connolly. Yes.
    Dr. DesJarlais. I was just curious, with all the aid that 
we got in Tennessee, what has happened from the deficit from 
that time to now.
    Mr. Connolly. I am not sure what the gentleman's question--
--
    Dr. DesJarlais. Well, we are talking about how we have 
created all these good jobs. But yet we continue to have a 
spiraling deficit. Is there any correlation there?
    Mr. Connolly. Reclaiming my time, I would say respectfully 
to the gentleman, it is not good enough to know the cost of 
everything and the value of nothing. There is a difference in 
spending. There is a difference between purchasing a consumable 
and making a strategic investment. And quite frankly, your 
State has really benefited from the latter, as has mine.
    The premise of this hearing is nothing but, in my view, a 
raw, partisan assertion that presupposes the answer. We don't 
say, in the title of this hearing, are Obama's green energy, is 
Obama's green energy agenda creating jobs. That would be a fair 
intellectual pursuit. We say, how Obama's green energy agenda 
is killing jobs, which gives away, transpaerntly, the agenda 
and the intent of the majority in putting together this 
hearing. It is not an honest intellectual pursuit. And that is 
too bad, what a lost opportunity. Because I really would have 
liked a hearing that actually did go in depth into, well, how 
are you keeping numbers. Are we disappointed in some 
investments that didn't work out? Are there some that are 
panning out that we now are happy with or we didn't expect 
would have the kind of payoff they did? But that is not really 
what we are about here.
    And just sadly, in looking at how sometimes we perform, you 
have been cut off in trying to give some answers or explain. 
You have been told it is a yes or no, so that of course we box 
you in, so that nothing gets in the record from you three that 
is unwanted or that contradicts the false premise of this 
hearing. And for that, I am very sad. It is a missed 
opportunity. I hope some day that we can put aside partisan 
gotcha and yet another hearing and trying our best to embarrass 
an administration and actually have an honest intellectual 
pursuit.
    So with that, I yield back my time.
    Chairman Issa. The gentleman yields back. Would you like to 
reclaim your time?
    Mr. Connolly. I reclaim my time as a matter of courtesy to 
the ranking member.
    Mr. Cummings. Thank you very much. I just want to go to, 
this is a New York Times piece which is very interesting, it 
talks about, it says here the bankruptcies of three American 
solar power companies in the last month, including Solyndra of 
California, and this is dated September 19, 2011, including 
Solyndra of California on Wednesday have left China's industry 
with a dominant sales position, almost three fifths of the 
world's production capacity and rapidly declining costs. Some 
American, Japanese and European solar companies still have a 
technological edge over Chinese rivals, but seldom a cost 
advantage, according to the industry. Loans at very low rates 
from state-owned banks in Beijing, cheap or free land from 
local and provincial government across China, huge economies of 
scale and other cost advantages has transformed China from a 
minor player in the solar power industry just a few years ago 
into the main producer of an increasingly competitive source of 
electricity.
    Do you have a comment on that?
    Mr. Poneman. Yes, sir, Congressman. We can get it back. We 
have the best innovation, the Abound case that was just noted, 
we have some great technologies. And there is no one who is 
better at innovation, marketing and making the private sector 
work than the American people.
    Mr. Cummings. And it can create jobs?
    Mr. Poneman. Absolutely. Hundreds of thousands of jobs 
already we have created.
    Mr. Cummings. Thank you, Mr. Chairman.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Michigan, Mr. Amash.
    Mr. Amash. Thank you, Mr. Chairman. I gladly yield my time 
back to you.
    Chairman Issa. I thank the gentleman. I thank him a lot.
    Mr. Poneman, I am going to zero in on something that 
Secretary Solis said about, we don't create these jobs by 
hiring the people, we in fact train them and the private sector 
hires them. Then how do you explain that the jobs created at 
the Lawrence Berkeley National Labs, a DOE-funded lab, 
basically government jobs, they were allowed to and 
successfully bid for the Algerian contract for carbon 
sequestration monitoring against an American company, 
Halliburton, and their Canadian partner. They underbid an 
American company that would have put the jobs in Houston, and 
instead, they used a government lab to underbid them.
    Why is it DOE is bidding against the private sector at all? 
Why is it that you in fact undercut an American company's 
attempt to bid in a foreign country? Why?
    Mr. Poneman. Two points, Congressman. Number one, to be 
clear, like all of our national laboratories, Lawrence Berkeley 
is a government-owned contractor operated facility. Point one. 
Point two, I am not familiar with the specific facts of the 
matter.
    Chairman Issa. We will give it to you and you can respond 
for the record.
    Mr. Poneman. I would be happy to respond.
    Chairman Issa. Contractor-funded, I am very familiar, I 
have visited many of the labs and certainly a lot of both our 
overt and covert facilities. Bottom line is, taxpayer dollars 
prop that up. Special considerations, even special patenting 
capability and the like, all of which are available to Lawrence 
Livermore, Lawrence Berkeley and the others, Los Alamos.
    Why are, presuming that this is a correct report, why is it 
that they should be bidding at all for contracts that are 
private sector contracts?
    Mr. Poneman. There are many of these bids, Congressman, I 
am not familiar with this particular case, in which they are a 
consortia, in which they are a number of private and academic 
and other institutions. That is one thing. The second thing I 
just want to note, we have worked very, very hard so that the 
intellectual property that has been developed in those national 
laboratories actually gets spun out of the private sector so 
that it promotes and stimulates private investment.
    So I am very happy to look at the particulars of this case 
and get back to you. But I am not familiar with it from what 
you have described.
    Chairman Issa. Well, you brought it up, so I will just be 
quite candid. You don't own the intellectual property when 
these labs do it. Individuals, inventors at the labs using 
government money ultimately spin them out and become very 
wealthy. It is one of the problems of the labs. And if you 
don't know it, you have only been on since March 2009, take a 
look at it. In fact, that has been part of our problem, is we 
fund people to in fact develop, we give them special access, 
and then yes, we do commercialize. The problem is, we take our 
money and allow somebody to commercialize it, basically making 
entrepreneurism on the back of the taxpayers.
    But I will give you the information on this so that you can 
answer for the record.
    Madam Secretary, once again I am going to just review the 
facts. And Dr. Hall, I would like you to weigh in on this. When 
you train somebody to drive a bus, if it is a hybrid bus it is 
a green job. That was from your own statement on Mr. Reyes, 
correct?
    Secretary Solis. Yes.
    Chairman Issa. Okay. Dr. Hall, can you today give this 
committee, and Mr. Connolly left, and I apologize that he is 
not here, but I am sure he will get word. The premise of ours 
is that you have bad numbers because you haven't had the 
metrics in order to get good numbers. If I put LEDs in my 
office, apparently my staff becomes a green staff. If my staff 
director drives in in a hybrid, I guess he becomes a green 
person. If a lobbyist is paid a million dollars a year here to 
lobby for green grants, apparently it is a green job.
    What are the number of green jobs, real jobs, that go on 
past government contracting or government subsidies today that 
are actually net increases since the President took office?
    Dr. Hall. The measurement, the two surveys I talked about, 
we are actually in the process of collecting data for the first 
time.
    Chairman Issa. So in the future, you will be able to give 
us numbers.
    Dr. Hall. Yes.
    Chairman Issa. But today, your numbers are clearly wrong, 
unless you make the assumption that teaching a bus driver to 
drive a bus is a green job. Understanding that there are no new 
net bus drivers created, there is only somebody driving a bus 
with a battery instead of a bus with just an engine and a 
starter battery, right?
    Dr. Hall. Our green jobs include mass transit. So actually, 
any busy service, whether it is----
    Chairman Issa. Oh, okay, so let me understand this. Because 
Mr. Connolly had some righteous indignation. You are counting 
everyone who drives a bus as a green job.
    Dr. Hall. Mass transit is a green service, yes.
    Chairman Issa. Oh, my goodness. I didn't know that.
    Mr. Poneman, one last question. There was some hyperbole 
here earlier about Beijing's terrible environment. Isn't it 
true that Americans enjoy the acid rain from China and 
Vietnam's abysmal use of coal by not cleaning it up and simply 
pouring it into the air? Ultimately that terrible Beijing ends 
up falling on the heads of Californians and our cleaner, much 
cleaner facilities using coal and natural gas, do not produce 
the kind of acid rain they produce?
    Mr. Poneman. Alas, this is a global problem. And the 
emissions that happen in one country certainly transmit to the 
other countries. That is why we have to address this on a 
global basis. And we are trying to do that every day.
    Chairman Issa. I would submit that no one is addressing 
China. China is doing what they want to do and stealing our 
jobs and we are actually enabling it.
    With that, I go to the gentleman from Illinois, Mr. Davis.
    Mr. Davis. Thank you very much, Chairman. And let me 
welcome our witnesses. It is certainly a pleasure to see our 
former colleague, Secretary of Labor, it is a pleasure indeed. 
Dr. Poneman, Dr. Hall.
    I was amazed, quite frankly, as I tried to analyze the 
title of this hearing. And that is the idea that the green 
energy agenda is killing jobs. And it is sort of, it struck me, 
how can you kill something that is already dead, that the jobs 
are not being killed by the energy program that is being 
developed and articulated, that job opportunities are being 
increased.
    And I want to especially thank and commend you, Madam 
Secretary, for the training programs that people in the 
congressional district that I represent, thousands and 
thousands and thousands of low income people, in an inner city 
community, who basically migrated from some of those areas that 
have been discussed, and have had opportunities denied them 
because business and industry has flown. So I commend you and 
the Department for the sensitivities that you have displayed, 
for the understanding.
    I also want to commend my colleague from Virginia for his 
understanding of Tennessee history and the recognition of how 
impactful government intervention has been on raising the 
quality of life in areas throughout the country.
    Dr. Hall, let me ask you, because I am interested in the 
numbers that the chairman asked about, how soon do you think we 
will be able to get those?
    Dr. Hall. We will start producing the green goods and 
services data in the first quarter of 2012. And by the middle 
of 2012 we will have the second survey results with the green 
technology and practices.
    Mr. Davis. Thank you very much.
    Let me just ask, there are people who argue that investing 
in green companies, the government is picking winners and 
losers. But investing in the energy industry is not new to 
government. We have done it for a long time, especially 
subsidies to oil companies, to big oil. Now instead of focusing 
predominantly on the fossil fuel projects, the Department of 
Energy loan programs appear to be promoting investment in a 
more diverse array of energy sectors.
    Dr. Poneman, let me ask you, can you describe the various 
energy sectors that the Department of Energy has made loan 
guarantees to, and can you describe what factors the Department 
takes into account in determining which companies get these 
loans?
    Mr. Poneman. Thank you, Congressman. I will answer both 
parts of that question. We have invested loan guarantees in the 
first nuclear power plant to be built in this country in three 
decades. We have invested in the largest wind farm in the 
world, some of the largest solar facilities in the world. We 
have invested in geothermal. We have invested in wind farms.
    The criteria that we use, the criteria that were wisely put 
into statute by the U.S. Congress going back to 2005 and later 
in 2009, we look for those projects that are innovative, that 
can make a significant difference in terms of creating a 
competitive, successful industry that hires American workers. 
Our data so far suggests we are generating hundreds of 
thousands of jobs.
    I had the opportunity, speaking of Tennessee, to go to 
Smyrna, TN to open a Nissan Leaf factory that is already hiring 
700 to 800 workers, and when in permanent operation will have 
1,300 workers. We have Iraqi war veterans who are working on a 
desert facility for solar in the Mojave Desert. We have 1,000 
green employees in the A123 factory in Romulus, MI, taking 
people like Annette Herrera and giving them jobs after they 
have been looking for 2\1/2\ years. We have seen this works, we 
can win this future.
    Mr. Davis. Mr. Chairman, can I ask your indulgence for a 
minute to ask a question of the Secretary?
    Chairman Issa. Without objection, the gentleman will be 
given an additional minute.
    Mr. Davis. Thank you very much.
    Madam Secretary, let me ask, what are the factors that your 
agency considers when you are trying to determine who gets 
training grants and what kid of training opportunities would be 
created as a result of those expenditures?
    Secretary Solis. Congressman Davis, this is a competitive 
grant process. So what we look for are obviously the potential 
for partnership. Industry has to be a part of that. It could be 
labor management, it could be a community based with an 
employer. And we have to look at the information that they 
provide in terms of market research, where the jobs will be, 
where there is a need and where there is an educational gap.
    It is a very competitive process. Actually in one of our 
grants alone that we gave out, Pathways Out of Poverty, to 
direct funding to low income communities with high rates of 
poverty, we were over-subscribed, we only could give out less 
than 90 grants. And there were over 400 applicants. So we know 
that there is a need, there is an interest. And these were a 
combination of industry working with communities and community 
colleges. So there is a great need.
    We are sorely underfunding, in my opinion, these kinds of 
efforts. We have to have a better trained work force.
    Mr. Davis. Thank you all very much.
    Chairman Issa. I thank the gentleman.
    We now go to the very patient gentleman from Pennsylvania, 
Mr. Kelly.
    Mr. Kelly. Thank you, Chairman.
    First of all, thank you all for being here. I would not 
disagree that President Obama's ideas on green jobs, he really 
believes that is a way we should go. But when you look at the 
history of our country, the ability to power up all over this 
country really is what created the jobs that we had back then, 
and we powered up the rural community. We did an awful lot of 
things because we had so many natural resources right here.
    And I hear people reference China and Germany. And I would 
suggest to you that China is one of the biggest purchasers of 
coal from us. They also do things a little bit differently than 
we do. So I don't want to model ourselves after China or 
Germany. Germany has a problem with natural Resources.
    But I think most people would agree, and in our business, 
one of the things, we sit down each year and try to project 
what we are going to do the next year, I am in the automobile 
business. One of our costs, of course, is the cost of money, 
but also the cost of energy. And by far, the most affordable 
thing for me is the fossil fuels. And most economists agree, 
okay, if energy is a component of what is going to drive your 
ultimate cost of operation, then shouldn't we be looking at 
making sure that energy costs stay low?
    Madam Secretary, Mr. Poneman, I would ask you, isn't that 
something we all agree on? If we are really concerned about 
jobs and creating jobs, I would also suggest that maybe we also 
need to consider keeping the jobs we already have and making 
sure that they have a more sustainable life. Is that something 
you would agree on? I think most economists agree that the low 
cost of energy really does help job creators.
    Secretary Solis. I agree, but I also know that because of 
what we saw happening in the automobile industry, in fact, in 
Detroit and the northeast section, we saw that the competition 
with foreign builders from Japan, China and Korea, South Korea, 
were actually better at producing more fuel-efficient cars.
    Mr. Kelly. And we know why they were, because their cost of 
buying fuel was a lot greater than ours for a long, long time. 
They import it all, we had it right here. The cost of gasoline 
was very inexpensive in the States, and that is why we 
continued to build what we built, because it was affordable and 
we could build those cars.
    I mean, if somebody had a choice, and I am going to tell 
you, I am a Chevrolet dealer, the fact that we use $7,500 of 
taxpayer money to sell a Chevy Volt to me does not seem to be a 
very good investment from a tax income. I don't believe that. I 
believe that people will buy other cars that are more 
affordable. And if we have to use taxpayer money to sell that 
car, that doesn't make sense to me.
    But my point is, if energy is a true cost of your total 
operation, for a job creator, that is important. People in my 
industry and other small businesses, they really do, that is a 
component. So when we tell them that, listen, the traditional 
energies that made us great, and were very affordable, now we 
are going to go to green energy, even though heavily subsidized 
with taxpayer money, is much more expensive. Now, how does that 
drive my cost of operation down?
    Secretary Solis. Those industries, GM, Chrysler, have 
actually paid back their loans. And I can tell you----
    Mr. Kelly. Well, but they paid back, they over-borrowed and 
paid back with money they over-borrowed.
    Secretary Solis [continuing]. I have seen the assembly 
lines----
    Mr. Kelly. And please, I don't want to get into that. My 
question is, is it directly related to jobs. In my area of the 
country, northwest Pennsylvania, and Pennsylvania has been 
called the Saudi Arabia of natural gas. We have a third of the 
world's coal beneath our surface. I have friends in western 
Pennsylvania that cannot get a permit to mine coal any more 
because the EPA took over primacy from the Pennsylvania DEP. I 
can tell you what.
    So in the interest of creating green jobs and creating 
green energy, which is more expensive than fossil fuel, and we 
are saying, yes, we want to create jobs, what we are going to 
do is we are going to penalize the people that already create 
cheap energy, we are going to come out with a taxpayer-
subsidized new green energy. And if the ultimate cost is still 
higher than we had, how does that help us?
    Secretary Solis. I will tell you that the Brookings----
    Mr. Kelly. I am sorry, ma'am, I was going to ask Secretary 
Poneman.
    Mr. Poneman. It is a great question, Congressman. Let me be 
very clear, number one, the premise about trying to get the low 
cost of energy, that is exactly right. That is why we are 
trying to drive down the cost of solar to 5 to 6 cents level 
cost of electricity, and then it competes, point one. Point 
two, we have used this program to protect the existing jobs. We 
protected 33,000 jobs, Ford Motor Co., through our loan 
guarantee program, making incremental improvements----
    Mr. Kelly. I am not talking about Ford or GM now, I am 
talking about at some point these industries----
    Mr. Poneman. These are all jobs.
    Mr. Kelly. Well, no. No. These industries, okay, they 
compete on a global market. I understand that,. We are talking 
about the cost of energy in all these different businesses 
okay.
    Mr. Poneman. Right.
    Mr. Kelly. We are talking about, do these green initiatives 
really create jobs. And my other question was, we already have 
a base of jobs now creating traditional energy, and we are 
holding them back. And that is not arguable. We are actually 
holding these people back.
    Now, it is true, and at some point, at some point, I raised 
four children and they all learned to ride a bike and they 
started off with training wheels. But sooner or later you have 
to take the training wheels off.
    Mr. Poneman. That is right, sir.
    Mr. Kelly. I am saying, in these green initiatives, we look 
at ethanol, we look at all these things, people are saying, 
look, this just doesn't work, it just doesn't make sense. My 
question is, when do you take the training wheels off and when 
do you stop subsidizing this when the ultimate product is 
greater cost than the one we already have, and we have it in 
great supply? We are not running out.
    Mr. Poneman. This is a great question, because the question 
is, are we building the future or are we building the past. If 
we want to win competitively in this country, we are going to 
have to beat, just as we did in the Industrial Revolution, in 
the technology revolution----
    Mr. Kelly. I understand that. I understand that.
    Mr. Poneman. The energy revolution is next.
    Mr. Kelly. Why are we penalizing the people that already--
--
    Mr. Poneman. To the contrary, sir, we are investing 
heavily----
    Mr. Kelly. You and I will disagree on that. I will tell you 
that the investments we are making, at some point we cannot 
continue to fund these. I think we need to take a look at 
these. But at the end of the day, we are making it very 
difficult for job creators. We are driving their costs up with 
no benefits.
    I yield back my time.
    Mr. Poneman. The investments we are making in coal----
    Chairman Issa. I thank the gentleman, although his time is 
expired, if you would like to briefly answer.
    Mr. Poneman. Thank you. Just briefly, Congressman, we are 
investing very heavily, $3.4 billion we are putting into our 
carbon capture and sequestration, and our CCPI program. We are 
strongly supporting our existing technologies and our existing 
industries as well as investing in the future. We think we can 
win the future.
    Chairman Issa. I thank both the gentlemen.
    I would now ask unanimous consent that the earlier 
described emails be included in the record. Without objection, 
so ordered.
    Additionally, I would ask that the LA Times environmental 
page, which I am going to give you a copy of, that shows that 
the endangered tortoise is now making the aforementioned solar 
Mojave Desert project on a hiatus for the foreseeable future, 
based on--let me make sure I describe it right--the 38 reptiles 
that might die. So hopefully Mojave Desert jobs will some day 
happen. But right now, 38 tortoises stand in the way.
    And with that, we recognize the gentleman from Manchester, 
New Hampshire, Mr. Guinta, for 5 minutes.
    Mr. Guinta. Thank you very much, Mr. Chairman. Thank you 
all for coming today.
    I wanted to move into a little bit of a different 
direction, if I could ask and direct my comments to Secretary 
Solis. I wanted to actually talk to you a little bit about a 
project in New Hampshire that I think you are familiar with, a 
Job Corps Center that has been a long time in the making. And 
there have been a lot of delays related to a lot of different 
issues.
    But first, I wanted to convey to you that our delegation is 
intent on working collectively to try to make this project 
happen, make it happen timely and as quickly as we can, and 
certainly under budget. So to that extent, could you give me 
just a quick status update on at least what you know on where 
the Job Corps Center stands as of today?
    Secretary Solis. Congressman, we are moving ahead with 
that. I am delighted that we have the support from your 
delegation, because I think one of our goals is to try to at 
least have one Job Corps Center in every State. Obviously yours 
was very important to us.
    And we did have some delays, but now we are moving ahead. 
By the end of the week I think we are going to take a 
preliminary step in releasing what we call sources sought, 
notice to gauge what the small business interests are. And that 
is going to be a very important component, so that small 
businesses can also look at getting involved in this project 
potentially.
    Mr. Guinta. So based on that, do you feel confident or 
could you guarantee that the construction of this New Hampshire 
project would be focused on New Hampshire businesses only? Or, 
do you feel that there is a possibility that outside 
businesses, outside of the State, would be part of the 
construction?
    Secretary Solis. Well, we will find out once we get that 
information as a result of what we are going to be posting. My 
hope is that, yes, all the jobs do stay in the area, because 
that is what our intent is.
    Mr. Guinta. Given that the delegation feels strongly that 
New Hampshire businesses would certainly qualify.
    Secretary Solis. Absolutely.
    Mr. Guinta. They have done different Federal projects in 
the State in the past, and I would certainly like to see that 
New Hampshire businesses and New Hampshire jobs for a New 
Hampshire project are paramount as we move forward with the 
project.
    Can you talk to me a little bit about the status of the PLA 
issue or whether there will be a PLA?
    Secretary Solis. We are planning for that to take place. 
But once we get all the information and we survey the small 
businesses and potentially their involvement, then we will move 
forward.
    Mr. Guinta. I would love, as that process moves forward, to 
try to keep in communication about PLA, if a PLA is going to be 
written, what the requirements within the PLA are going to be. 
I take the position that I would like to see a level playing 
field, and I would like to see every business, regardless of 
whether they are union or non-union, have a fair opportunity to 
work on this project.
    Secretary Solis. I understand, and that is why we are doing 
the survey now.
    Mr. Guinta. Good. I appreciate that.
    Also, relative to the solicitation phase, are there going 
to be, or can you give me an idea on what the green 
requirements or building requirements would be?
    Secretary Solis. I can't elaborate on that at this time.
    Mr. Guinta. But if there will be green requirements, is 
that something you can notify the delegation of?
    Secretary Solis. Absolutely. Once we identify who the 
actual contract will go to, I am sure we will be able to work 
with you and the delegation, because I know they are very 
interested.
    Mr. Guinta. The reason I ask is, the unemployment rate in 
New Hampshire within the construction industry is far higher 
than the actual New Hampshire unemployment rate, which is 
around 5.5 percent, and it is much higher than the national 
average of 9.1 percent. So the construction industry is eager 
to work on this job, and I am eager to see New Hampshire 
employers and individuals get back to work as quickly as we 
can. I know that you share in that same vision.
    So I look forward to working with you on that particular 
issue. If there are issues with the PLA, I would like to make 
sure that we work through those quickly and effectively and try 
to get this project underway.
    Chairman Issa. Would the gentleman yield?
    Mr. Guinta. Yes, I would.
    Chairman Issa. I would like to thank the Department of 
Labor for sending all Members of at least the majority the 
number of training jobs just prior to this that were in their 
district. I take note that it was informational and not 
lobbying.
    The committee set about to have this hearing be about 
proper accounting for job creation and about whether or not we 
had net job gains or loss and so on. And many people objected 
to the title.
    But I just want to close with a simple question for Dr. 
Hall. As I understand it, if I wanted to, I could say that 
every job fueling a bus, fueling a bus is a green job because 
it is a job in mass transit. I could probably say the same 
thing about every United Airline pilot, right?
    Dr. Hall. Sure, yes. The logic of the mass transit of 
course is that every single bus may replace dozens of cars.
    Chairman Issa. Okay, I just wanted to understand that for 
the record.
    Dr. Hall. That is why it is in there.
    Chairman Issa. Because an empty bus being driven or an 
empty train being driven might be inefficient as can be, and 
highly subsidized. But it is a green job. So I look forward to 
receiving what I would consider to be the undeniable green 
jobs. You have all been very patient. You have lived up to our 
12 o'clock anticipated deadline. I thank you for your 
testimony.
    Mr. Cummings. Mr. Chairman, just a few minutes, please? I 
just have to get something in the record. I didn't know you 
were wrapping up.
    Chairman Issa. I am wrapping up, but if you have a 
unanimous consent, I would accept it at this time.
    Mr. Cummings. Thank you very much.
    I just wanted, Mr. Chairman, you just, I don't know what 
you were referring to, but with regard to information, but Mr. 
Chairman, I have another document I would like to enter into 
the record. This is a report I asked my staff to complete for 
Members, all members of our committee. It provides information 
from the Brookings Report and the Departments of Energy and 
Labor about green initiatives in each of our districts, both 
Democrats and Republicans.
    I asked my staff to put together this report so each Member 
can see what programs are going on right now that may 
contribute to job creation in his or her district, region, 
metropolitan area. Some of this relates to Recovery Act funding 
and some of it relates to private funding.
    The point is that we need to support this sector, because 
these are the jobs of the future and we have to invest in this 
future if we want our Nation to remain competitive.
    I also want to take the time--I would ask that it be 
submitted to the record.
    Chairman Issa. First of all, I would ask unanimous consent 
that that inclusion and other extraneous material that Members 
may want to have, they would have 5 legislative days in which 
to place them in the record. Additional questions, comments for 
the same period of time.
    Mr. Cummings. Just one last thing. I wanted to thank the 
witnesses. I thank you so very, very much. And I really mean 
that. Because as I listened to all of the evidence, I have not 
heard one scintilla of evidence that shows that your efforts 
are killing jobs.
    Now, Dr. Hall, I know you are going to come forward with 
your report. I see you every month, as you well know, in a 
joint economic committee. And I know your work. I am looking 
forward to seeing those numbers. Because I agree with the 
chairman, we want integrity with regard to numbers. We want to 
know that these jobs are being produced. Because I have people 
in my district, I am telling you, in the area I live in, 
African American male unemployment is probably 35 to 40 
percent. They are begging for jobs.
    So how we define it, I would like to know. But I really 
want to make sure that people get jobs and they are able to 
support their family.
    Thank you, Mr. Chairman.
    Chairman Issa. I thank the gentleman.
    I would only ask one closing request. Would all of you be 
willing to take additional questions from Members who had them 
and couldn't give them today?
    Then without objection, we would ask that all Members will 
have 5 days in which to submit their questions, and of course, 
we will hold the record open for your answers.
    And with that, we stand adjourned.
    [Whereupon, at 12:05 p.m., the committee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] 73444.064

[GRAPHIC] [TIFF OMITTED] 73444.065

[GRAPHIC] [TIFF OMITTED] 73444.066

[GRAPHIC] [TIFF OMITTED] 73444.067

                                 <all>

</pre></body></html>
